<html>
<title> - UNITED STATES AIR FORCE READINESS</title>
<body><pre>[Senate Hearing 115-612]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-612
 
                   UNITED STATES AIR FORCE READINESS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                    READINESS AND MANAGEMENT SUPPORT

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 10, 2018

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
 


                 Available via: http://www.govinfo.gov
                 
                 
                             ______                       


               U.S. GOVERNMENT PUBLISHING OFFICE 
36-348 PDF              WASHINGTON : 2021                  
                 


                      COMMITTEE ON ARMED SERVICES
                      

    JAMES M. INHOFE, Oklahoma,  JACK REED, Rhode Island
             Chairman
ROGER F. WICKER, Mississippi   BILL NELSON, Florida
DEB FISCHER, Nebraska          CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas           JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota      KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa               RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina    JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska           MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia          TIM KAINE, Virginia
TED CRUZ, Texas                ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska            ELIZABETH WARREN, Massachusetts
TIM SCOTT, South Carolina      GARY C. PETERS, Michigan
JON KYL, Arizona                     
                                     
                                     
                   John Bonsell, Staff Director
              Elizabeth L. King, Minority Staff 
                           Director


            Subcommittee on Readiness and Management Support

DAN SULLIVAN, Alaska, Chairman     TIM KAINE, Virginia
MIKE ROUNDS, South Dakota          JEANNE SHAHEEN, New Hampshire
JONI ERNST, Iowa                   MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia                
                                     
                                (ii)

  


                            C O N T E N T S



                            October 10, 2018

                                                                   Page

United States Air Force Readiness................................     1

Wilson, Hon. Heather A., Secretary of the Air Force..............     5
Goldfein, General David L., USAF, Chief of Staff of the Air Force    11
Pendleton, John H., Director, Defense Capabilities and               12
  Management, United States Government Accountability Office.

Questions for the Record.........................................    61

                                 (iii)



                   UNITED STATES AIR FORCE READINESS

                              ----------                              


                      WEDNESDAY, OCTOBER 10, 2018

                  United States Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:32 a.m. in 
Room SR-222, Russell Senate Office Building, Senator Dan 
Sullivan (chairman of the subcommittee) presiding.
    Committee members present: Senators Sullivan, Inhofe, 
Rounds, Ernst, Perdue, Kaine, and Shaheen.

           OPENING STATEMENT OF SENATOR DAN SULLIVAN

    Senator Sullivan. Good morning. This hearing on the 
Subcommittee on Readiness and Management of our U.S. military 
will come to order.
    The subcommittee meets today for the first time since the 
passage of the John S. McCain National Defense Authorization 
Act for the fiscal year of 2019 to receive the testimony on the 
current readiness of the United States Air Force.
    I do want to begin by noting an obvious significant loss to 
the country, to the Senate. I am the new chairman of this 
subcommittee. I was not a chairman before we lost Senator 
McCain. I would much rather not be a chairman and have him 
still be here. But we all know that that was a huge loss for 
everybody around the table, everybody in the Senate. As a 
matter of fact, Senator McCain once sat in this seat from 1995 
to 1997, as well as Senator Inhofe, who is now the chairman of 
the committee. So I think that is just something we should all 
recognize and be cognizant of.
    I am particularly pleased that we have my ranking member, 
who is a good friend of mine, Senator Kaine, and a great panel 
this morning in terms of the Secretary of the Air Force, 
Secretary Heather Wilson; the Chief of Staff of the Air Force, 
Chief of Staff Goldfein; and Mr. John Pendleton, the Director 
of Defense Capabilities and Management for the Government 
Accountability Office (GAO). I want to welcome our witnesses.
    It has been almost 6 months since this committee received 
testimony from the Air Force on its current posture in support 
of the fiscal year 2019 budget. As I mentioned, prior to that 
in those 6 months, a lot has happened. The NDAA [National 
Defense Authorization Act] was passed with $716 billion in 
authorized funding, and it did not get a lot of press, but 87 
U.S. Senators voted for that bill. A very, very bipartisan 
effort to rebuild our military. The same amount has also been 
appropriated.
    The Air Force has now released its ``The Air Force We 
Need'' plan. I want to thank the Secretary--I have read that--
for laying that out with the need to ramp up from your 
perspective, Madam Secretary, to 386 squadrons, as well as 
conduct an internal operational safety and review.
    The GAO has released a number of new reports citing the 
need for instances of needed change inside the U.S. Air Force.
    There is plenty to talk about today, and I want to thank 
all of my colleagues for being here.
    With the announcement earlier this year of a document that 
I think most of us find very persuasive, Secretary Mattis' 
National Defense Strategy (NDS), which laid out a new strategic 
approach to addressing military challenges, this committee has 
a new lens through which to ensure that the lines of effort in 
this NDS are focused and supported by the Congress.
    I certainly support Secretary Mattis' efforts in this 
document, the National Defense Strategy, and appreciate that 
the topics we discuss here are framed in how they support the 
NDS, especially in how we address potential peer and near-peer 
conflicts with China and Russia.
    With Congress passing its first on-time authorization for 
the first time in over 20 years and an appropriations bill for 
the military for the first time since 2008, it sends a timely 
message to both our adversaries and allies that a bipartisan 
group of Senators and Members of the House are focused on 
rebuilding our military in a way that does not do damage but 
actually helps them. It also sends an important message to the 
men and women in uniform that we are here to deliver bipartisan 
support for them.
    The Air Force of today looks in some respects very much 
like the Air Force of yesterday, and that is not a compliment. 
For instance, the average Air Force aircraft is 28 years old, 
and since Desert Storm, we have 58 percent fewer combat-coded 
fighter squadrons. While this is not a modernization hearing, 
it is a readiness hearing, and unless we modernize our Air 
Force for the future, we will put lives at risk both on the 
ground and in the air in terms of readiness.
    With modernization also comes a significant burden on 
sustainment. So the Air Force must find balance between keeping 
our existing aircraft battle-worthy and ramping up to new 
squadron requirements that the Secretary laid out in her recent 
speech.
    In a recent GAO study, it was found that the B-22, C-17, E-
8C, F-16, and the F-22 all face unexpected replacement of parts 
and repairs, delays in depot maintenance, and diminished 
manufacturing sources.
    Additionally, in October 2017, GAO found F-35 aircraft 
availability is well below service expectations. GAO has 
recommended that the Department of Defense revise F-35 
sustainment plans to ensure that they include the key 
requirements and decision points needed to fully implement the 
F-35 sustainment strategy.
    The GAO also released another report on the need for the 
Air Force to improve its F-22 organization, which could lead to 
improved aircraft availability and pilot training. The GAO 
found in July 2018 that the Air Force's organization of its 
small F-22 fleet has not maximized aircraft availability and 
their utilization of F-22's reduces opportunities for pilots to 
train for their key missions in high threat environments. Mr. 
Pendleton, I appreciate you walking us through these findings 
and recommendations, as Alaska is home to two very critical F-
22 squadrons.
    As my colleagues know, I do like to talk about my State. 
That will not diminish as the chair of this committee. I like 
to mention that Alaska constitutes three pillars of America's 
military might. We are the cornerstone of missile defense, the 
radars and the missiles that protect the whole country. We are 
a key platform for expeditionary forces because of our 
strategic airlift and strategic location that can fight tonight 
pretty much anywhere in the northern hemisphere, and we are the 
hub of air combat power in the Arctic and the Asia-Pacific. 
With F-35's coming to Alaska in the next couple years, we will 
have over 100 fifth generation combat-coded fighters, which I 
am pretty sure no place on earth will have that kind of fire 
power and punch.
    Secretary Wilson, I know you have been a proponent of our 
small 60,000 square mile JPARC [Joint Pacific Alaska Range 
Complex] facility. That is airspace that is larger than 
Florida. So I look forward to getting your thoughts on the 
JPARC 2025 plan and, more broadly, how we are going to make 
sure we have range spaces all over the country and the world 
for fifth gen fighter aircraft.
    Again, I want to thank everybody for being here. I am very 
much looking forward to being the chairman of this committee.
    I would like to now turn it over to Senator Kaine for any 
opening remarks. I am also honored to have the chairman of the 
full Armed Services Committee here as well. Senator Kaine?

                 STATEMENT OF SENATOR TIM KAINE

    Senator Kaine. Thank you, Mr. Chair, and thanks to our 
witnesses. I am looking forward to this hearing today.
    I will echo what Senator Sullivan said about just the first 
big committee meeting since the passage of Senator McCain. I 
luckily inherited the office that Senator McCain had for about 
20 years. When he decided to move around the corner into the 
office that had been occupied by Senator Kerry when Senator 
Kerry became Secretary of State, my seniority was so low that I 
should not have been able to get John McCain's office. However, 
he did not believe in painting an office, and he also was a 
pack rat. So his office did not have a lot of curb appeal.
    [Laughter.]
    Senator Kaine. So I was able to get it despite low 
seniority and paint it. I love being able to be in this office 
that he had for so long. I sometimes feel like I am hearing the 
ghost of him cursing me out, which he did on occasion.
    [Laughter.]
    Senator Sullivan. We all know what that is like.
    Senator Kaine. Yes, we can all remember those words.
    But I am glad, Dan, that you opened up with that. I look 
forward to working with you. I had a great relationship with 
our current chair when he was chair of the Readiness 
Subcommittee. Senator Inhofe, I think you will attest that I 
was generally reliable, and I look forward to working with you, 
Senator Sullivan, as well. You get congratulations not just for 
being chair, but I think you joined the committee and became 
chair in one jump in the subcommittee. So that is pretty cool.
    Senator Sullivan. Very cool.
    [Laughter.]
    Senator Kaine. I do not know that that has ever happened 
that you join the subcommittee and become chair in one jump. So 
congratulations for that.
    A couple of issues that I would hope to hear about. I just 
want to alert I am introducing a Virginia nominee for a 
district court judgeship position at 10:00 in the Judiciary 
Committee. So I will leave a couple minutes before 10:00 and 
then come back and have questions for you.
    But the two issues that I am most interested in are, first, 
just readiness recovery. We have had testimony in the past 
about shortage in pilots and maintainers. I think that what we 
are going to hear is that you made some real headway in 
addressing those shortages, and I am interested in that.
    I think in particular in Virginia, as I am at Langley and 
talking to our Air Force, I hear a lot more about the 
maintainer side shortage in a way than the pilot side shortage, 
and I think sometimes that does not get the same attention that 
pilot shortages do. So I am interested in hearing how we are 
trending there.
    We have a low unemployment rate. We have a lot of civilian 
aviation competitors who really want great maintainers and 
great pilots. And so I know that as you are trying to fill 
gaps, we are helping on the budget side. We are helping, giving 
you some more certainty, but it is a competitive environment. I 
am interested in that.
    Second, the state of our installations, our infrastructure 
is an important part of readiness. The Air Force is facing 
about $300 million in military cost construction overruns or 
other shortfalls. How does that affect what we need to do on 
the installation side? I have found that steel tariffs have 
increased military construction (MILCON) prices significantly 
in some instances by about 30 percent in terms of the use of 
steel on MILCON projects.
    Look, we will continue to have robust debates about climate 
change, but climate change is having an effect on 
installations. The Air Force recently had to cancel a fiscal 
year 2018 MILCON project related to the F-35 at Eielson Air 
Force Base due to the thawing of permafrost. We see significant 
effects at the Langley Base in Hampton dealing with sea level 
rise that is affecting that base. It is also affecting other 
bases in Virginia. How are we going to deal with that 
challenge, as we are trying to make investments in MILCON, is 
something that I am interested in as well.
    But I look forward, Mr. Chairman, to working with you on 
the committee. We got great witnesses here and we will have a 
good hearing.
    Senator Sullivan. Great. Thank you very much.
    Senator Inhofe, as the chairman, I would like to give the 
floor to you.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Mr. Chairman, I only want to make a 
comment.
    First of all, Senator Kaine, you were always attentive 
during the times that we had that relationship, and I 
appreciate all of your activity.
    I was reminded just a few minutes ago--and that is why I 
was a little bit late coming in here--by the Heritage 
Foundation talking about some of the recommendations that they 
are making. We are all very aware that what we went through 
during the 8 years, the Obama years--he did not have a high 
priority in our military. A lot of things that we thought were 
being done or the public thought were being done were not being 
done. And so we are in a catch-up mode. We are going to 
continue to do it. I have had numerous conversations with our 
witnesses about this, and I look forward to that.
    However, I also will be chairing the 10 o'clock meeting 
next door. So, Mr. Chairman, go after it.
    Senator Sullivan. Well, Mr. Chairman, thank you.
    Lastly, I do want to make just one note, and it is 
something Senator Inhofe and I have discussed a lot. Of course, 
our members are allowed to ask questions. But I just want to 
make a comment on the Space Force.
    I commend President Trump for thinking about space in a 
more assertive and organized way, but I think the witnesses 
will not be surprised. What I have been saying about this idea 
is that, first--and it is appropriate for this committee--we 
must focus on the readiness of the existing Military Services, 
which I think everybody recognizes has plummeted over the last 
several years, so that they are fully ready to do what the 
President and the American people expect of them. While I 
understand that the desire to talk about the Space Force today 
might be pressing, I believe that the chairman of the full 
committee intends to address this topic as kind of a full 
committee issue as well at some point.
    So, again, I want to thank the witnesses. Your prepared 
statements will be entered into the record. We respectfully 
request that you keep your opening remarks in the vicinity of 5 
minutes. Secretary Wilson, we will begin with you.

STATEMENT OF HON. HEATHER A. WILSON, SECRETARY OF THE AIR FORCE

    Secretary Wilson. Thank you, Mr. Chairman, and I will just 
summarize my opening remarks from my written statement.
    America is building a more lethal and ready Air Force, and 
the predictable and increased funding levels that came
    from the United States Congress have helped tremendously in 
helping move us in that direction. I wanted to personally thank 
you for your leadership and your support of restoring the 
funding for national security and giving us some certainty.
    The National Defense Strategy recognizes that we are in a 
more competitive and dangerous international security 
environment than we have experienced in decades. So the 
restoration of the force, the restoration of the readiness of 
the force to win any fight any time has to be job one for all 
of us.
    So what does that mean and what has the Air Force been 
doing?
    Last spring, we gathered together 50 airmen from around the 
world and seconded them away in a basement room in the Pentagon 
for almost 6 weeks to drill into the readiness challenges that 
we face, how do we measure readiness, how do we resource 
readiness, how can we recover readiness more quickly, and give 
us a plan to be able to implement.
    The elements of readiness recovery are really fourfold.
    The first is people. Our end strength is now up to 685,000 
because of the resources that you have given us. In 2016, the 
Air Force was 4,000 maintainers short. Today we are 400 
maintainers short, and by December in the Active Duty service, 
we will be back to having closed the gap and we will no longer 
have a 4,000 maintainer shortage on Active Duty. Now, that 
means we have to season our young airmen and get them to be 
craftsmen at their work, but at least now we have enough people 
there to do the maintenance that needs to be done.
    Second, with respect to aircrew, we have a national 
shortage of aircrew, and it affects the United States Air Force 
because we are so good at training people how to fly and the 
airlines know it. We are focused on retention and improving the 
quality of service and quality of life, but we are also focused 
on increasing pilot production.
    In fiscal year 2017, the United States Air Force trained 
1,160 pilots. In fiscal year 2019, we will train a little over 
1,300, moving by fiscal year 2022 to about 1,500 pilots, and we 
will stay at steady state at 1,500 thereafter. If we are able 
to do that and achieve our objectives on retention, we will 
recover the pilot shortage by 2023 where we will be 95 percent 
manned. We are also trying to scrub all of our requirements for 
aircrew so that we are not overproducing aircrew, and we have 
what we really think we need.
    Third is training. If we are preparing for the high-end 
fight, we need to be able to provide time and places for our 
airmen to train in realistic situations. That means ranges, but 
it also means what we call virtual and constructive training. 
Sometimes now you can do more in simulation than you can do 
actually up in the air. That training has to be relevant and 
realistic. Mr. Chairman, you are right. JPARC, as well as our 
Nellis Test and Training Range, are two of the premier ranges 
in the world for being able to train for the high-end fight.
    The fourth thing we need to do is cost effective 
maintenance and logistics. We have an old fleet with high 
operating tempo for the service, and I think this is going to 
take the most intense focus on recovery of readiness is how are 
we going to make sure that our aircraft are ready to go and 
ready to fight tonight.
    The final thing I would mention on things that we are doing 
and things that you funded that helped was the restoration of 
munitions stockpiles where we were depleting our munitions 
stockpiles in the fight against ISIS [Islamic State of Iraq and 
Syria] faster than we were replacing them. The funds that you 
provided have allowed us to significantly recover from that 
situation.
    So we are doing things to recover readiness. We are 
simultaneously trying to field tomorrow's Air Force faster and 
smarter. We set a goal for ourselves 6 months ago. We have a 
very good leadership team in acquisition. They got together and 
said, you know, in the first 12 months together as a team, they 
wanted to strip 100 years out of our acquisition programs. 100 
years. So far they have stripped out 56 years out of our 
acquisition programs. We are using prototyping. We are changing 
the way we are doing software development, to do that faster 
and better. We are committed to transparency and 
accountability.
    We have seen just over the last few weeks that competition 
works. We have saved about $13 billion just on three major 
acquisition programs that we have announced over the last few 
weeks. The T-X, the replacement for the UH-1 helicopter, and 
the GPS [Global Positioning System] satellite program have all, 
because of competition, come in at lower than our cost 
projections.
    The Air Force is more ready for major combat operations 
today than we were 2 years ago. More than 75 percent of our 
pacing force is combat ready today in their lead force 
packages. That said, we all know we have a long way to go and 
we are after it.
    Chief?
    [The prepared statement of Secretary Wilson follows:]

                  Prepared Statement by Heather Wilson
                              introduction
    Chairman Sullivan, Ranking Member Kaine, distinguished members of 
this committee; I appreciate the opportunity to testify on Air Force 
readiness. I am joined by our Vice Chief of Staff, General Wilson.
    This is my second year as Secretary of the Air Force. On behalf of 
the 670,000 Total Force Airmen, I want to thank you and your colleagues 
in authorizations and appropriations. For the first time in a decade, 
we are starting a new fiscal year with a signed defense budget. It's 
hard to understate the important difference this makes for our airmen. 
Your leadership and bipartisan collaboration has returned us to fiscal 
order. It enables our airmen to continue building a more lethal and 
ready force, as directed by the 2018 National Defense Strategy.
    We are committed to using these funds responsibly to restore the 
readiness and lethality of the Air Force.
                           threat environment
    One month ago, Russia began the largest exercise on Russian soil in 
four decades with more than 300,000 troops and 1,000 aircraft. On the 
other side of the world, China's first aircraft carrier was declared 
combat ready this year, and it promptly sailed into the Pacific to 
conduct flight operations.
    China has militarized disputed features in the South China Sea, and 
now all of Southeast Asia is within reach of its long-range bombers. 
President Xi's plan is for China to be a top-ranked military by 2050, 
and President Xi is no longer bound by term limits on his Presidency.
    The National Defense Strategy recognizes that we are in a more 
competitive and dangerous international security environment than we 
have seen in generations. It tells us how to prioritize for this 
environment and where to take risk. It tells us that we need to be able 
to defend the Homeland, provide a credible nuclear deterrent, win 
against a major power while countering a rogue nation, all while 
managing violent extremists with a lower level of effort.
    Each of these missions requires a combination of U.S. Services, and 
the Air Force is integral to every one of them. To implement the new 
National Defense Strategy, the Air Force must build a more ready and 
lethal force, while building and strengthening alliances and 
partnerships.
                    readiness declined over decades
    At the height of the Cold War, in 1987, we had about 1.1 million 
[1,134,507] Total Force Airmen and 401 operational squadrons. Four 
years later the Air Force deployed for Operation Desert Storm with 
squadrons that had spent 20 years training for a high-end fight. The 
initial battle would last just 43 days, and the Air Force was tasked to 
continue flying combat sorties.
    One year after Operation Desert Storm, budget cuts forced the Air 
Force into its largest reorganization in its history. Squadrons were 
deactivated, bases were closed, and major commands were consolidated. 
Hundreds of aircraft were retired. By 1996, Total Force end strength 
was reduced to about 846,000 [845,681], but Air Force combat missions 
continued.
    While the size of the Air Force decreased, the service also adapted 
to new missions. On 9/11 the Air Force had eight remotely piloted 
aircraft--eight total. After 9/11, the demand for remotely piloted 
aircraft and persistent intelligence, surveillance and reconnaissance 
grew dramatically. This year, 12,500 airmen helped fly 279 remotely 
piloted aircraft on round-the-clock missions to meet warfighter needs.
    A shrinking, Combat-Active Air Force taking on new missions with an 
aging manned aircraft fleet was stretched thin when the sequestration 
of 2013 hit. The impact was devastating. One-third of Air Force combat 
flying squadrons stood down for 3 months, large-scale exercises were 
cancelled, and the service lost over one million work-hours of depot 
maintenance.
    Then, in 2014, when reeling from the impact of sequester, ISIS, the 
Islamic State of Iraq and Syria, declared its caliphate, and the Air 
Force surged to the fight. By 2017, the Air Force was the smallest it 
had ever been, conducting combat operations with the oldest equipment 
it had ever used, and successfully employed nearly 30,000 weapons in 
Syria and Iraq.
                           readiness recovery
    It is clear to all of us that restoration of the readiness of the 
force has to be a top priority. The 2018 National Defense Strategy 
makes building a more ready and lethal force job one.
    Last spring we gathered together fifty airmen from around the 
service. They spent over six weeks together analyzing Air Force 
readiness. They looked at how we measure and report readiness. They 
identified the barriers to our readiness recovery. Armed with this 
information, they developed and presented a recovery plan to Air Force 
leaders.
    A plan is nothing without the resources, end strength and budget 
certainty to implement it. Actions by the Congress over the past two 
years have been tremendously helpful.
    To begin with, we decided to focus the additional resources you 
have provided on our 204 operational squadrons that are most relevant 
to a high-end fight so that we can recover readiness in these units 
fastest. Our plan accelerates readiness recovery in these units by 
aligning resources and manpower. Our goal is for 80 percent of these 
units to have the right number of properly trained and equipped airmen 
by the end of 2020--6 years faster than we projected before we 
developed our recovery plan.
    While we will drive the readiness recovery of these operational 
squadrons first, the remainder of our 312 operational squadrons will be 
close behind so that by 2023 we will meet the 80 percent mark for all 
of our operational squadrons.
                                 people
    Readiness recovery is first and foremost about people.
    As an important example, the end strength increases you have 
authorized and funded in fiscal year 2018 allowed us to address the 
serious shortage of maintainers. We were 4,000 maintainers short in 
September of 2016. By December of this year, we will have closed that 
gap to zero. Now, we must season these new airmen to get them the 
experience needed to become craftsmen at their work.
                                aircrew
    There is a national shortage of pilots and aircrew. A good economy 
and strong hiring by airlines makes aircrew retention a priority and 
directly affects our readiness.
    We are addressing the aircrew shortage first by addressing the 
quality of service and quality of life issues that may cause aircrew to 
choose to leave the Air Force. We are trying to reduce the operating 
tempo, to revitalize squadrons, and to restore support positions so 
that aircrew can focus on their primary job. Funding flying hours is 
part of this effort. While incentive pay and bonuses are part of the 
solution, greater input on assignments and testing a ``fly only'' 
technical track for aviators who just want to fly are part of the 
retention effort.
    But retention efforts alone will not solve the aircrew shortage. We 
have a national pilot shortage. We are increasing the number of 
students we are training to fly from 1,160 a year in fiscal year 2017 
to 1,311 in fiscal year 2019, building to 1,500 by fiscal year 2022 and 
steady state, thereafter.
                                training
    The second piece of readiness, after people, is relevant and 
realistic training to maintain a qualitative advantage over 
increasingly capable adversaries. The Air Force is meeting some of this 
need by investing in operational training infrastructure--our ranges 
and airspace--and simulation. We are improving secure infrastructure, 
simulators, threat emulators, and training ranges to enhance realism 
and enable our airmen to train locally for a high-end, multi-domain 
fight.
    Our airmen need ranges with enough airspace to train realistically. 
The Joint Pacific Alaska Range Complex is one of the Air Force's 
premier training ranges. The U.S. Army owns the land, and the U.S. Air 
Force manages the operations. The range has 66,000 square miles of land 
and air maneuver space and 58,000 square miles of overwater airspace. 
That is slightly larger than the size of New Mexico.
    At the Joint Pacific Alaska Range Complex, our airmen can train 
against more than 40 surface-to-air threats, including foreign systems, 
which is valuable for realistic training exercises like Red Flag-Alaska 
and Northern Edge. Currently, the Joint Pacific Alaska Range Complex 
can only emulate a fraction of the existing and emerging threats to a 
level suitable for advanced sensors and cannot provide a fully 
contested or degraded environment with the assets available.
    The Air Force is planning to base 5th Generation fighters in 
Alaska, and our pilots will need access to an adequate training 
environment. Our intention is to have two ranges that would represent 
what our crews would face against a peer adversary: the Joint Pacific 
Alaska Range Complex and the Nevada Test and Training Range. These 
ranges will provide the complex, dense combat environment crews will 
likely encounter during operations.
    The Air Force plans include requirements for threats, targets, 
adversary air, multi-domain integration, airspace, and manpower. We 
have identified other range improvements nationwide to improve the 
quality of Air Force training and readiness.
                cost-effective maintenance and logistics
    The third element of restoring the readiness of the force is 
weapons system sustainment--the parts, supply, and equipment--to make 
sure our aircraft are ready to go when needed.
    Maintaining an old fleet with a high operating tempo and 
inexperienced maintainers in a global enterprise is probably the 
hardest part of restoring the readiness of the force. It will take the 
most intense focus and will require that we look at new methods to 
achieve the results we need.
    A team of airmen conducted a detailed sustainment review earlier 
this year. They identified 45 recommendations to reach 80 percent 
readiness levels, beginning with our 204 pacing units by 2020, followed 
by our remaining operational units in 2022, and then carrying over to 
all remaining units by 2024. Focus areas to achieve those results 
include supply chain improvements, changes to the way we manage 
engineering improvements, force structure and fleet management changes, 
service life extensions, and technology such as sensors that improve 
data collection to make our maintenance personnel more productive.
    The sustainment review further highlighted the increased lethality 
derived from conditions based maintenance. Increasingly used in 
commercial industry, conditions based maintenance uses analytical tools 
and monitoring sensors to predict parts failures. Those tests are 
showing a reduction of approximately 30 percent of unscheduled 
maintenance. We have tested these tools with our C-5 and E-3 aircraft. 
We intend to move to conditions based maintenance for all aircraft as 
rapidly as possible.
    We have also found efficiencies in our depots. Today, we accomplish 
KC-135 major repair and overhaul at our Oklahoma Depot in 155 days at a 
cost of $9.9 million per aircraft. That is 40 percent faster and more 
than 50 percent less expensive than contract proposals we received to 
do the same work in 2018 from industry. More impressively, we have 
increased depot production by 20 percent, now completing 75 aircraft 
per year.
    These measures do not replace the benefits of a modern and rested 
fleet. In 2014, the Oklahoma Depot saw an average of three major 
repairs per aircraft (usually corrosion or fatigue based) and a total 
of 162 major structural repairs for all aircraft. Today, despite the 
aforementioned advances in affordability and efficiency, there are 6.6 
major repairs per aircraft, and we are on pace for nearly 500 major 
structural repairs.
                           rapid sustainment
    We need to significantly improve the logistics and sustainment 
enterprise.
    In July we established the Rapid Sustainment Office and committed 
to fund it for 2 years. Its two primary objectives are to reduce cost 
and improve readiness by using advanced manufacturing technologies.
    The Rapid Sustainment Office is establishing criteria to track and 
measure its impact. It will operate in a ``hub and spoke'' model by 
building partnerships with universities and industry.
    If the Rapid Sustainment Office is successful, it will pay for 
itself by reducing the cost of maintaining our weapons systems, and we 
will continue to support it.
            fielding tomorrow's air force faster and smarter
    The acquisition system we inherited from the Cold War era is too 
slow for the digital age. We are changing the way we buy things to 
field tomorrow's Air Force faster and smarter.
    In the 2016 and 2017 National Defense Authorization Acts, Congress 
restored primary responsibility for acquisition to the Services, 
granting us new authorities to accelerate prototyping and fielding.
    We set an aggressive goal of stripping 100 years of unnecessary 
schedule from our program plans. In six months, we have saved 56 years.
    Three contributing factors are making us faster. The first is 
prototyping. For example, in hypersonics, we are leveraging Navy 
technology to build, fly, and buy our nation's first operational boost-
glide weapon five years earlier than anticipated. In Next-Generation 
Missile Warning, we are competitively prototyping the new sensor, 
retiring this key risk nearly a year earlier, while also strengthening 
the industrial base for future programs.
    The second contributing factor to increase speed is the use of 
tailored acquisition strategies. We have empowered our workforce to 
structure decisions around the specific needs of their programs, vice 
the generic milestones of the traditional acquisition process. 
Recently, our F-15 Eagle Passive Active Warning Survivability Systems 
split its Milestone C decision into two tailored reviews, accelerating 
fielding by 18 months at no additional cost.
    The third major effort to increase speed to the warfighter is agile 
software development. The decades-old ``waterfall'' process for 
developing software one step at a time is too slow, expensive, and 
often doesn't work at all. We are making a wholesale shift to agile 
development, putting acquirers and operators together to make rapid 
incremental software improvements. We proved the concept with air 
refueling at the Combined Air Operations Center, saving the Air Force 
$13 million in fuel per month, and reducing the requirement by two 
tankers and ten aircrews.
    We established the Kessel Run Experimentation Laboratory to 
continue applying agile development for the warfighter and stood up a 
Program Executive Office Digital to develop and proliferate best 
practices across the Air Force. So far, major programs like F-22, 
Unified Platform, and Protected Tactical Enterprise System are reaping 
the benefits of shifting to agile development, accelerating delivery to 
the warfighter.
    Using new authorities given to us by Congress is not just faster, 
it's giving us better results.
    We are committed to competition. Within the last month, we made 
major announcements on three major programs: the Global Positioning 
Satellite IIIF, the UH-1N helicopter replacement, and the T-X jet 
trainer. Each of these programs gets the most out of competition 
through stable requirements, a mature technology base, and transparency 
with industry. In just these three programs alone, the Air Force saved 
the taxpayer over $13 billion from the independent cost estimates we 
used to plan the programs.
    Digital engineering may revolutionize how we buy systems, and our 
B-52 Commercial Engine Replace Program is leading a pathfinder on 
digital twins. By conducting a ``digital twin fly-off'' early in the 
program, we ensure we get maximum fuel efficiency, which saves taxpayer 
dollars and extends the B-52's range for the warfighter. It accelerates 
fielding by three and half years.
    We are also seeking to become a leader in Federal Government 
procurement with small businesses and start-ups by pairing a government 
credit card swipe with a one-page Other Transactions Agreement. Pairing 
these two mechanisms gives the Air Force a small-dollar contracting 
mechanism that can ``pay in a day''. To prove it out, we are conducting 
a small business and start up day at the end of this month to find 
innovative solutions to some of our vexing problems. We will attempt to 
award 50 contracts in 50 hours at the end of this month.
    If successful, we will hold our first Air Force Start-up Days early 
next year using these ``pay-in-a-day'' contracts. With so much 
innovation happening in small businesses and start-ups, we need 
creative ways to connect with them that can be mutually beneficial.
    The authorities you have given the Air Force are making a 
difference. These authorities do not sidestep key decisions, reporting, 
or oversight. They streamline to those that matter. We will not 
sacrifice quality or accountability for speed. Early prototyping and 
development informs the Department of Defense and Congress about a 
program's performance feasibility prior to making costly decisions to 
procure, field, and sustain it.
    We are mindful of the trust placed in us, and we are committed to 
transparency on these programs. We will submit tri-yearly reports to 
Congress, similar to the Selected Acquisition Reports, and be good 
stewards of your trust and of taxpayer dollars.
                                 impact
    With the help of Congressional funding and acquisition authorities, 
the Air Force is more ready for major combat operations today than we 
were 2 years ago. More than 75 percent of our pacing force is combat 
ready today with their lead force packages.
    That said, we have a long way to go to restore the readiness of the 
force to win any fight, any time. We remain focused on that objective.

    Senator Sullivan. Thank you, Secretary Wilson.
    General Goldfein?

STATEMENT OF GENERAL DAVID L. GOLDFEIN, USAF, CHIEF OF STAFF OF 
                         THE AIR FORCE

    General Goldfein. Thanks, Madam Secretary, and Chairman, 
thank you for holding a real timely hearing.
    What I would like to do very quickly is just share a story 
that perhaps will offer us perspective on what we are here to 
talk about today.
    Of all the work and the obligations that we have--and I 
would say this is a shared obligation between this committee 
and the Secretary and I--the one that I believe is nothing 
short of a moral obligation is to ensure that every airman, 
soldier, sailor, and marine that we send into harm's way to do 
the nation's business is properly organized, trained, equipped, 
and led. When they get back, they can come back to their 
families that we have taken care of while they are gone. 
Everything else--we do the best we can.
    So let me just share with you one quick story about what I 
call confidence under fire, which is what we are here to talk 
about. How do we produce the readiness of the force to 
accomplish that moral obligation we have to those that we send 
into harm's way?
    I was a young captain when we went into Desert Storm. I 
know that there are many here that have also--Senator Sullivan 
yourself, Senator Ernst have had combat time. That warrior's 
prayer has not changed over the years. Please, God, do not let 
me let my buddies down and let me get the job done.
    When we went into Desert Storm, I was in a squadron that 
had--all but one, none of us had had combat time. The squadron 
commander had had combat time in Vietnam. The rest of us had 
never seen it. And so we went in uttering that prayer. We 
crossed into enemy territory for the very first time, and I 
remember his voice on the radio when he said, look, there is 
triple A, right 2 o'clock, anti-aircraft artillery fire. We all 
stared at it. Then he said there is a surface-to-air missile, 
left 10 o'clock, and we all stared at this big surface-to-air 
missile like a telephone pole coming up through the formation 
and we watched it explode. Then we heard on the radio, splash, 
MiG 29, and one of our F-15's sees it, shot down a MiG 29 and 
we watched it hit the desert floor and explode.
    I remember that moment in the cockpit as a young captain 
because it came to me that nothing I was seeing or hearing was 
new. I had been in an environment just like this before at 
Nellis and at JPARC range and had been put in this situation. 
Every radio call, every formation, everything I was seeing is 
something that I had been trained for. In fact, I would share 
with you that I remember thinking this is actually easier than 
Red Flag because they threw everything at me, plus the kitchen 
sink, when I was there. That moment in the cockpit produced 
this level of confidence that I knew that I could succeed in 
combat.
    I think that is what we are here to talk about. How do we 
ensure that the young captains, the young airmen, the NCOs [non 
commissioned officer] of today and tomorrow have that same 
confidence under fire that I had when I went into combat in 
Desert Storm?
    I look forward to the questions and the dialogue today 
because this is a shared obligation to ensure that we all 
remain committed to ensuring that these soldiers, sailors, 
airmen, and marines go into harm's way with what they need to 
get the job done and we take care of their families while they 
are gone.
    Thank you.
    Senator Sullivan. Thank you, General Goldfein.
    Mr. Pendleton?

STATEMENT OF JOHN H. PENDLETON, DIRECTOR, DEFENSE CAPABILITIES 
 AND MANAGEMENT, UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Pendleton. Chairman Sullivan, members of the 
subcommittee, thank you for inviting me to talk about our work 
on Air Force readiness.
    I think you are going to find that we are largely in 
agreement with the Air Force on the challenges going forward. 
Over the past quarter century, we have been tracking readiness, 
and we have seen it gradually but steadily decline primarily 
because the Air Force has gotten smaller, but the demand has 
stayed high.
    Back in 2016, we urged the Department of Defense [DOD], 
including the Air Force, to develop a plan for readiness 
rebuilding. At that point, the Air Force felt that rebuilding 
the readiness of its force would take a decade or more and only 
if they got increased budgets and a decreased pace of 
operations. Budgets have increased but the pace has stayed 
high.
    Today the Secretary testified--or in her statement 
actually--that the Air Force is aiming to have 80 percent of 
its over 300 operational squadrons ready within about 5 years. 
This is an aggressive goal. To meet it, the Air Force is going 
to need to focus on the building blocks of readiness, as they 
are saying they intend to do: people, training, equipment.
    Let us talk about personnel briefly. The Air Force has 
shortfalls of both maintainers and pilots. The gap for 
maintainers I think is about to be closed, but it will take 
time for them to grow experience. The pilot shortfall may take 
a bit longer. The retention incentives to date have not worked 
to meet goals, and I think it may take a little bit longer for 
the Air Force to close.
    Regarding equipment, we have found, not surprisingly, that 
older equipment breaks down more. But it is not limited to the 
older aircraft--the mission capability challenges. The F-22 
mission capability rates are well below desired levels, as you 
know. It is partly because its aircraft are so maintenance 
intensive. They have this low-observable coating on them that 
makes them difficult to work on. The F-35 is proving to be so 
costly to operate and sustain that it actually jeopardizes the 
program, as many of you know. DOD and the Air Force are working 
to try to get those costs down, and I think that will be 
critical.
    Training, as the Secretary mentioned, is another challenge 
area. The pace of Air Force operations has left little time for 
aircrews to train. As the Air Force seeks to rebuild readiness, 
I agree that training may be one of the more difficult things 
to achieve, especially if demand is not dampened.
    The full-spectrum mission of the F-22, for example, is so 
complex that it takes most of the year to fully train for it. 
But we found questions about the way the F-22 is utilized. It 
is called away to participate in exercises that do not give it 
much training value. It sits alert, gassed and ready, but not 
training. They have to fly adversary air for each other because 
they often do not have dedicated adversary air in the vicinity, 
and that does not provide much training value for the red air.
    We made several recommendations around organizing and 
utilizing the F-22 better, which the Air Force agreed with and 
I believe are beginning to take action.
    These are just a few highlights. In all, we have made 14 
readiness-related recommendations that I summarize in the back 
of my statement, and I am happy to talk to you about any of 
those as the hearing goes on.
    Looking to the future, I understand the Air Force's desire 
to get larger. Like the Navy, Air Force readiness has suffered 
as demands have stayed high while the force has shrunk. Like 
the Navy, the Air Force believes it needs to grow by about a 
quarter to meet future demands and the strategy. But regardless 
of future growth, the Air Force will have to keep much of its 
existing force structure for decades to come. Therefore, I 
agree the priority needs to be rebuilding the readiness of the 
existing fleet certainly in the near term.
    Mr. Chairman, I am encouraged by what I have heard from the 
Air Force today. They have taken several steps in the right 
direction. Now it is a matter of achieving results. Recovery 
will not be easy or fast. It took a quarter century for the Air 
Force to get here, so it may take a while to recover.
    We at GAO stand ready to assist you in your oversight.
    That concludes my remarks. I look forward to your 
questions, sir.
    [The prepared statement of Mr. Pendleton follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sullivan. Great. Thank you and thanks again for all 
the good work that GAO has been doing in this area.
    Let me begin by--Madam Secretary, this is a question for 
you--the issue as it relates to the readiness of aircraft that 
are available that come into the Air Force fleet, and in 
particular, I am thinking about the F-35.
    So I saw just a couple days ago that Secretary Mattis 
ordered the Air Force and Navy to get mission capable rates up 
to 80 percent. I did a little sniffing around. I think Delta 
Airlines--their aircraft readiness in their fleet is about 86 
percent. I believe it is something along those lines. Yet, for 
the F-35--it is a new airplane, coming on line, coming out to 
the fleet--I think it is in the--you can correct me if I am 
wrong--but mid-60s.
    So why is there, A, such a disparity between military 
aircraft that are brand new and commercial aircraft? Can we get 
to, within a year--I know that is what the Secretary put in his 
memo. Can we get to a rate of 80 percent, and how can we do 
that?
    Secretary Wilson. Thank you, Mr. Chairman.
    The readiness recovery plan that we put together in the 
spring accelerates our readiness recovery by about 6 years and 
says that by the end of fiscal year 2020, our pacing units, our 
most important units for a peer competition, of which we have 
204 operational squadrons--that 80 percent of those will be at 
C1 or C2 readiness by the end of 2020.
    The Secretary of Defense has asked us to accelerate further 
our F-16's, F-22's, and F-35's to the end of fiscal year 2019 
and come up with a plan to do that.
    Now, what we are focused on here is not the entire fleet. 
It is not the test and evaluation airplanes and those kind of 
things. And so we have a situation where we actually are now 
standing up. We are not even at full operating capability for 
some of our squadrons, but we are focused on the operational 
squadrons and making sure that they are at high levels of 
mission capable readiness both for their pilots, their 
equipment, and their training.
    So you had asked what are the challenges with the F-35 
fleet with respect to sustainment.
    Senator Sullivan. Is that number like in the mid-60s? That 
is correct. Is it not?
    Secretary Wilson. It varies by squadron, significant 
variation by squadron. I may ask the Chief to jump in here on 
this.
    But I would say that there are a couple of issues. 
Obviously, one of them is that the spare parts lines did not 
start up fast enough, and that is something that predates all 
of us. But they were so focused on initial production, they did 
not start up and really work the logistics system fast enough.
    The second and most obvious difference between an F-35 and 
an airliner is the low observable coating and the complexity of 
maintaining that.
    We are putting together a plan with, of course, the Joint 
Program Office because this is a joint program--it is not an 
Air Force program--to get the supply line right so that our 
operational squadrons can meet the goals that the Secretary of 
Defense has set out for us.
    Chief?
    General Goldfein. Chairman, I would just share with you a 
couple weeks ago I had a conversation with Israeli Air Chief 
Amikan Norkin. He shared with me. He said, Dave--he said I am 
not integrating the F-35 into the Israeli Air Force. I am 
integrating the Israeli Air Force into the F-35. It was a 
telling statement on how this aircraft, this weapon system, is 
looked at operationally as the quarterback of the joint and the 
allied team because it is really an information fusion engine. 
And so operationally we are seeing incredible capabilities 
coming out of this platform.
    Where we are focused--and I think Mr. Pendleton said as 
well--is on that sustainment piece. As an international air 
chief, speaking on behalf of my fellow F-35 international air 
chiefs, we are working to drive the sustainment costs down so 
that they are on par with a fourth generation F-16, F-18 
because that is what all of the air chiefs have put into their 
budgets. And so this is one that we are working with the 
Department, with the Joint Program Office, and with Lockheed 
Martin to ensure that we drive these sustainment costs down, 
and we are not going to stop until we see them on par.
    Senator Sullivan. Mr. Pendleton, do you have any views on 
just the fleet readiness and why--I know it is a complex 
aircraft. It only took almost 2 decades to procure and develop, 
which that is a whole other topic for a whole other hearing. 
But it does seem to me kind of ludicrous that we get new 
aircraft off the production line and within a month, they are 
at 65 percent readiness. I mean, what do you think is going on 
there?
    Mr. Pendleton. I think the Air Force is focused on 
production and not enough on sustaining the aircraft, just to 
be blunt about it. It is causing problems. The depots are 
already several years behind. Parts are a problem. It is going 
to be difficult to achieve those kind of mission capability 
rates.
    Now, I will say on mission capability rates that whenever I 
hear a percentage--you know, I am auditor. That is a numerator 
and a denominator. What exactly is in both of those I think 
will become very important and we will be watching that, of 
course.
    Senator Sullivan. Thank you.
    Senator Rounds. Thank you, Mr. Chairman.
    General Goldfein, with regard to the discussion about the 
immediate capabilities or at least between the F-22 and the F-
35, we know as low observable aircraft both of them have some 
challenges because it is a technology that is difficult to 
maintain. Yet, we changed the styling on the technology, the 
way that we handle low observability between the F-22 and the 
F-35. There is a reason for it. Part of it is because we 
learned by the F-22.
    Would you like to share just briefly what we expect to get 
out of the F-35 that we could not get out of the F-22 in terms 
of low observability and making it easier to maintain the 
capabilities of the F-35?
    General Goldfein. Thanks, sir.
    You know, we took all the learning from--and I flew the F-
117. So we could say first generation and was a wing commander 
and responsible for low observable maintenance on the F-117. We 
learned from that. We actually send F-117 maintainers and 
pilots to the B-2 to learn. And so throughout the evolution of 
low observable technology and maintenance, we have learned from 
every one of the generations, if you will, going forward. So we 
took everything we learned from the F-22 and we applied that to 
the F-35 not only in production, but now in terms of 
maintenance. How we do the coatings, how we achieve the low 
observability we need is a generation beyond what we are doing 
in both the F-22 and the B-2.
    The big story, though, on the F-35 is the information 
fusion. I would just share you this way. When I was flying the 
F-16, I would go out for a mission, and then when I came back, 
my debrief was primarily to determine what I had missed, what 
did I not see, what information was out there that I did not 
collect, and how could I improve my ability to manage my 
systems to do that.
    The F-35 pilots are having a completely different debrief 
because it is all there. The question is how did they fuse it 
and how did they act.
    Just to give an example, when an F-35 pilot is taxiing out, 
he or she is already getting information fed into the cockpit 
on what is going on in the cyber world, in the space world. 
They are already calling audibles. So going back to what the 
Israeli air chief said, I am integrating my entire air force 
into the F-35, and why we think about it as the quarterback, 
because it is able to call audibles real time in a really 
complex environment in ways that we have just not been able to 
do before.
    So it is this combination of low observability, allowing 
you to penetrate and persist, and the information fusion, what 
you can do once you are inside an enemy environment, that 
allows the F-35 to do what it does.
    Senator Rounds. If I could, what you are saying and what I 
am hearing is that we are basically on the cutting edge 
technology that is going to get a lot better, but we are 
learning as we go along and this is a part of that learning 
curve that we are in right now.
    General Goldfein. Yes, sir. You cannot overestimate the 
importance of the international aspect of the F-35 because I 
have never been in a single fight where I have done it alone. 
Every time I have gone into combat over the last 28 years, we 
have been there side to side with our allies and partners. The 
fact that they are in this weapon system with us is probably 
one of the most important outcomes of coalition warfare going 
forward.
    Senator Rounds. I think sometimes we forget about that, and 
I appreciate your bringing that up because those partnerships 
are critical to us. It is something that our near-peer 
adversaries do not have.
    General Goldfein. Yes, sir.
    Senator Rounds. Thank you.
    Secretary Wilson, I am just curious. There is going to be a 
discussion about whether we should be working on maintaining 
our existing force and bringing it up to speed versus adding 
new squadrons, more manpower, and so forth. But I think the two 
are integratable and I think that they cannot be separated.
    Would you care to share your thoughts about the need to not 
only increase so that we have actually got aircraft to do the 
mission that is necessary and then the reason why we are having 
problems right now in terms of the amount of hours we are 
expecting from the airframes that we have got and the pilots 
that we have got on hand right now?
    Secretary Wilson. Senator, job one is to restore the 
readiness of the force that we have. This committee asked the 
Chief and I last March what is the Air Force you need to 
execute the National Defense Strategy. We have a formal report 
that is due to the Congress in March.
    So we have a group within the Air Force. There is also 
Mitre Corporation and the CSBA [Center for Strategic and 
Budgetary Assessments] who are also doing independent looks at 
what is required in order to execute the National Defense 
Strategy. Certainly modernization and new concepts of 
operations, integration with the joint force, dependence on 
allies. But we have done quite a few war games and modeling and 
simulation that do show that we are too small for what the 
nation is asking of us under the National Defense Strategy when 
we project forward to the 2025-2030 time frame in particular. 
That is because we have returned to great power competition. We 
have a rapidly innovating adversary that is putting a lot of 
effort into the development of their military. I think we have 
an obligation to you to be able to answer that question, what 
is the Air Force we need when we look at the rapidly innovating 
threat. And so that was the basis of our work in saying we 
think it is about 386 squadrons in the 2025-2030 time frame.
    That will engender a debate on how we get there, can we get 
there, what are the resources required. We understand that. But 
at a minimum, we should be able to tell you what is needed.
    Senator Rounds. Mr. Chairman, I think one of the most 
critical pieces in what the Secretary has said is that the 
public is expecting that we will have the best Air Force and 
that we can handle our near-peer competitors. Actually what she 
is saying is that without the increases that we need in 
manpower and in new squadrons, we are not able to meet that 
near-peer competition.
    Secretary Wilson. We are ready to fight tonight. There is 
no question. But when we project forward into 2025-2030, with 
the best intelligence estimates we have, that is where the 
greatest issue is. And so we can see what the adversary is 
doing and project forward as to what they plan to do, and we 
have an obligation to maintain dominance and air superiority to 
carry out the National Defense Strategy and provide options for 
the commander in chief.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Sullivan. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman. I am sorry I had 
to step out.
    I am going to say this even though it is not directly 
related, but I went out because there is an exhibit in the 
Rotunda of young people who have overdosed, and these are 
portraits that are very dramatic. This is an issue I think for 
all of us across our society. And so I would urge everybody to 
walk through the Rotunda on your way out. The portraits were 
painted by a woman from New Hampshire, and that is how I am 
connected to it.
    I also wanted to just--I am sorry that Senator Inhofe has 
left because I wanted to respond to his comment about the last 
8 years of President Obama. Leadership and politics aside, one 
of the biggest challenges of the last 8 years has been 
sequestration. I raise it because if we do not make a change, 
we are looking at that coming again. And so I think we cannot 
just suggest that it has been about leadership. It has been 
about our failure to provide the funding that our armed 
services have needed, and we better face up to that now because 
we are looking at it coming down the pike again. I would urge 
us all to think about how we are going to address that because 
these readiness challenges really got critical during the years 
when sequestration was in effect.
    With that preface, I want to begin, Secretary Wilson, by 
again thanking you and the Air Force for your very positive 
response to the contamination from PFAS [per- and 
polyfluoroalkyl substances] that has been at the former Pease 
Air Force Base. You sent up John Henderson, who is the 
Assistant Secretary of the Air Force for Installations, 
Environment, and Energy. He was very effective in meeting with 
residents of the community who had been affected and reassuring 
about the effort to address this issue, which I know everyone 
very much appreciated.
    I want to ask you, though, because one of the questions 
that came up was about the fire fighting foams that contributed 
to the problem that we have at Pease and what is being done. 
There has been some concern about whether there is going to be 
a new fire fighting foam that is developed that can meet the 
same requirements to fight fires. So can one of you talk about 
what you are seeing and what the prospects are to develop 
something that is just as effective?
    Secretary Wilson. Yes, Senator, I think I can.
    First of all, the Air Force, I think to its credit--it was 
my predecessor who got us on this path--but went out 
proactively and assessed all of our bases. This particular foam 
was used in all kinds of fire fighting, but the Air Force was 
only one of the entities that has used it. And so we did an 
assessment.
    We pretty much completed that assessment at all of the Air 
Force locations, identified where we have problems, and we are 
committed to fixing it and providing clean water immediately 
when people are affected.
    We have also replaced this foam already at Air Force 
locations with another kind of fire retardant that does not 
contain that chemical.
    Senator Shaheen. Well, that is really good to hear because 
there was a hearing in a subcommittee of the Environment and 
Public Works Committee that raised questions about whether the 
Air Force has in fact replaced that fire fighting foam. So I 
hope that that message will get sent loud and clear to 
everybody so that everybody understands that that has been 
done.
    Secretary Wilson. Senator, I will take that back and we 
will confirm that for you in writing.
    Senator Shaheen. That would be great. Thank you very much.
    [The information referred to follows:]

    The Air Force began replacing legacy Aqueous Film Forming Foam 
(AFFF) with a new, more environmentally responsible firefighting foam 
in August 2016. The replacement foam meets military specifications, is 
perfluorooctanesulfonic acid (PFOS) free and contains only trace 
amounts of perfluorooctanoic acid (PFOA). All Air Force installations 
have transitioned to the new AFFF in both stockpiles and fire trucks. 
We delivered equipment that allows testing of fire trucks with zero 
AFFF discharge to all of our bases. All hangar system replacement 
projects were funded in fiscal years 2017 and 2018 with estimated 
completions in 2020.

    Also following up on that a little bit more, earlier this 
year Senator Rounds and I introduced the PFAS Registry Act, 
which would have set up a national registry for everyone 
affected. There were pieces of that that are included in the 
McCain authorization bill. I just wondered if you could talk 
about whether efforts have begun, if you are aware of efforts 
that have already begun within DOD to begin to set up this 
registry and what we might need to do to support that.
    Secretary Wilson. Senator, if I could take that one and go 
back and also get that answer for you in writing.
    Senator Shaheen. Sure. That would be great. Thank you.
    [The information referred to follows:]

    Regarding a registry for individuals exposed to PFAS, as specified 
in the section 315(c)(4) of the National Defense Authorization Act of 
Fiscal Year 2019, the Secretary of Defense will conduct an assessment 
of the human health implications of PFAS exposure. The assessment will 
include a description of the amount of funding that would be required 
to administer a potential registry of individuals who may have been 
exposed to PFAS while serving in the Armed Forces. The Department will 
also assess scientific results and recommendations from ongoing PFAS 
studies and analyses by the Centers for Disease Control and Prevention/
Agency for Toxic Substances and Disease Registry, and other 
organizations, to determine the feasibility of a registry.

    I am almost out of time so I will save my question for the 
next round.
    Senator Sullivan. Okay.
    Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Of course, to our witnesses, thank you very much for being 
here today. We certainly appreciate your service and your 
commitment to our great United States of America.
    General Goldfein, I would like to start with you please, 
sir. Thank you very much for acknowledging the fact that we 
need to man, train, and equip our servicemembers. The training 
is very important. Whether it is simulation or whether it is 
actual exercises in the air, that muscle memory and those 
rehearsals are very, very important--and you are right--when it 
comes down to it, to be able respond immediately in a time of 
crisis. Very important. So thanks for acknowledging that.
    I know that many of us here on the committee have been 
following the physiological episodes (PE) that have been 
occurring in our flying communities, and I am confident in 
saying that all of us are committed to ensuring the safety of 
our pilots. And so I am happy to hear that the Air Force has 
joined with the Navy now and we have a Joint Physiological 
Episodes Action Team, or JPEAT, to share information and really 
get after this problem. So congratulations on that.
    I am aware that there has been some progress made with 
regard to resolving these PE issues in the Air Force trainer 
fleet. Can you share with the committee this progress and then 
how it impacts resolving PE issues in other platforms as well?
    General Goldfein. Yes, ma'am, thanks.
    In the T-6, which is the aircraft that we have been most 
recently having the physiological episodes.
    As you mentioned, we put together a team with the Navy and 
went and looked at it, and we were able to drive down to the 
point with high confidence. What we have found is that it is 
the concentration of oxygen levels at various parameters of 
flight that was falling behind what was required. So in 
different maneuvers and different flying in certain of the 
aircraft, the concentration levels were off.
    And so the way we are attacking this is for the near term 
and long term. In the very near term, now that we have 
identified what the root cause is, we have looked at all of the 
maintenance practices because the Navy has T-6's. We have T-
6's. We compared the best practices of both services, and we 
have changed significantly the way we are maintaining every 
part of the system to ensure that we can mitigate and minimize 
any implications of having the concentration values not be 
optimum.
    The second thing what we are doing is we are out there and 
we are talking to the force. We learned with the F-22 when we 
went through that, that when we were doing all of our analysis, 
we stopped a dialogue with the operators and their families. So 
they started wondering and questioning what we were doing. So 
this has been an inclusive, transparent dialogue throughout. So 
now we have sent a team out with a one-star general that has 
briefed every one of our T-6 pilots and we have talked to 
families in town halls to make sure they know exactly what is 
going on.
    The long-term solution to this is going to be a redesign of 
the system to ensure that we have the concentration levels 
right. We have a team right now that is doing the redesign, and 
then as soon as they come to us with the solution, that is 
going to be a priority for the section guy to move forward.
    Senator Ernst. Very good.
    So you mentioned that was the T-6 as well and the F-22, and 
you are applying that to other platforms as well then.
    General Goldfein. Yes, ma'am.
    Senator Ernst. Well, I do appreciate that. It has been very 
concerning, and we are glad to see the attention really being 
paid by both the Air Force and the Navy to the PE. So I 
appreciate that.
    Thank you for mentioning the families because that is a 
great lead-in to the question I have for Secretary Wilson. 
Thank you, Secretary, for being here as well.
    I chair the Emerging Threats and Capabilities Subcommittee, 
and I have had the opportunity to learn about SOCOM's [Special 
Operations Command] success with Preservation of the Force and 
Family (POTFF) program. We ask a lot of our airmen and their 
families, and we all want to provide them with the absolute 
best possible support we can. I understand it may not be 
possible to apply POTFF all across the Department.
    Is there a way that we could incorporate parts of that 
program with folks in the Air Force? We know that it has been 
very helpful to those that are in those special operations 
community in AFSOC [Air Force Special Operations Command], and 
we would like to see pieces or parts of that shared with the 
greater Air Force as well. Are there ideas or things that could 
be applied?
    Secretary Wilson. Senator, we are trying that out at four 
different bases. We call it Operation True North. The concept 
is to embed the caregivers in the squadrons where people are 
for both mental health, spiritual wellbeing, but also physical 
health. One of the outcomes from SOCOM is if someone is in the 
same unit and they are responsible for mental health, there are 
conversations that go on that are easier to have than if you 
have to make an appointment over at the clinic and walk through 
that door.
    The second part on physical health. We have actually found 
that by embedding--we are taking care of high performance 
athletes. By embedding physical trainers with the units, it is 
not about what you cannot do. It is about how you can do. The 
number of injuries and the reluctance to go see a doc, because 
if you go see the doc, they are going to take you offline 
status and it is hard to get back on. And so there is a 
reluctance to get help as opposed to--I was with a special 
operator down at Hurlbert who said to me it has been the best 
thing. I was out there working out and the physical trainer 
just said--and then he said, yes, my back has been bothering 
me. He said, well, let me watch you lift. He said this was 
here. Let me show you how to do this. Let me show you how to 
strengthen those muscles. He said I feel like a young man. I 
have never felt this good because I am training properly now, 
and I did not have to go to the doc.
    So it is a different approach to maintaining the human 
weapon system and resilience by incorporating that into how we 
operate the squadrons.
    Senator Ernst. I appreciate that. It is a very important 
program, and if there are things that we can do to assist in 
that effort, please let us know. I am a huge fan of the POTFF 
programs.
    Thank you all very much for being here today. I appreciate 
it. Thank you.
    Senator Sullivan. Senator Perdue?
    Senator Perdue. Mr. Chairman, welcome to your new role. I 
look forward to working with you.
    I want to make one comment for the record for our guests 
here today. You know, I think this is one of the most important 
meetings we could have. The timing is perfect, as the Chief 
said privately before we started.
    I am chagrined, though, again that with an important 
meeting, we are all double, triple-booked. And so the 
attendance here is disrespectful to these witnesses. I want 
that for the record. With your leadership, I know we can change 
that.
    Senator Sullivan. Well, thank you. You raise a good point. 
There are several other hearings happening literally right now. 
This is really important.
    Senator Perdue. We are all double-booked. We are all 
missing something else to be here, but I think this is 
absolutely critical.
    Chief, I am worried. As an old manufacturing guy, I am 
worry about our supply chain. I am worried about our industrial 
base. I look at the F-35, though, and the decisions that were 
made that you guys have inherited where we have got that supply 
chain spread all over the world for whatever reason, social, 
economic. I do not know, but it certainly was not with national 
defense in mind.
    I want to know what can we do. Eric Schmidt said that 
bringing technology into the force, both in current readiness 
and in developing the recap that you guys are going to have to 
face over the next 10 years--by the way, Secretary, I could not 
agree more. I am not worried about where we are today. I have 
full faith in you guys today. I am worried about what China has 
said publicly about Made in China 2025. 2025 and beyond I am 
really concerned about.
    That leads to this question. Eric Schmidt, Obama's 
appointee of the Defense Innovation Advisory Board--and he said 
this. He said that bringing new technology in the force is the 
biggest concern. If there was one variable to solve for, it 
would be speed. In competing with these guys, they do not have 
the same constraints that we do.
    He also said--and I am going to paraphrase this, but the 
requirement process we have in DOD is now the single greatest 
barrier to rapid technological advancement. By advancement, he 
means not development but deployment.
    Sir, when we look at both recapping and improving our 
readiness today, where are we in terms of working with the 
industrial base and the supply chain that you guys have 
inherited to sort of get at this? I would like maybe both of 
you. I see your head nodding, Secretary. Both of you may have a 
comment on this. But I think this is the number one threat that 
we have right now.
    Secretary Wilson. Senator, I am glad you bring this up 
because it is something that we are both really focused on, and 
taking advantage of the new authorities that you have given us 
to move at speed. Let me give you a couple of examples.
    One is with the F-35. The Defense Department and the Air 
Force is terrible at buying software. So we changed the way we 
are buying software. We set up a software factory called Kessel 
Run outside of Boston to be able to do development operations 
(DEVOPS), so rapid insertion of technology in an iterative way. 
We just this last week went out to Nellis. There is a logistics 
system that supports the F-35 called ALIS, A-L-I-S. It cannot 
scale. It has got huge problems. It drives the maintainers 
nuts. And so we put together a team of Lockheed Martin, Air 
Force programmers, and maintainers on the flight line and said 
let us to DEVOPS and figure out where the problems are and try 
to rapidly get tools to the warfighter to fix ALIS. They named 
themselves. The new program is called Mad Hatter, rather than 
ALIS. It is always the young techies that come up with 
something.
    But it is not only that. Let me give you a couple examples 
of where we are moving very quickly. Eric Schmidt is right. We 
are actually partnering with DIUx [Defense Innovation Unit 
Experimental] in some of our space enterprise kinds of things. 
We started in January a space enterprise consortium. We have 
got over 200 companies now involved. 150 of them are 
nontraditional companies. We have done 32 prototypes with 
greater than $100 million in total value of those 32 
prototypes. The average time between solicitation to award is 
90 days. We have given four awards just since January for rapid 
launch of small satellites, partnering with DIUx, at $15 
million to get small satellites up in the air and do it fast. 
We just broke into four program executive offices in our Space 
and Missile Systems Center rather than one all the way at the 
top of the $6 billion enterprise. By doing that, we cut out 
three layers of bureaucracy in getting capability to the 
warfighter. We set out nine pacesetter projects to show how to 
go fast to acquire space systems, and those nine pacesetters 
cut 19 years out of their acquisition timelines, and they have 
a number of other pacesetters in line saying, hey, we want to 
do it this way too.
    We are using the authorities for prototyping the 
experimentation that you have given us. We are stripping out 
layers of bureaucracy. We have pushed down authority to program 
managers and given them the power to move quickly, to use 
competition.
    The final thing I would say is we are partnering with our 
allies. We partnered with Norway on a satellite communications, 
polar satellite communications, where we had a 2-year gap. We 
closed the 2-year gap, saved $900 million by partnering with 
Norway. We are doing the same on another project with Japan.
    The Air Force is trying to take the authorities you have 
given us and move forward to go faster and smarter on 
acquisition.
    General Goldfein. Sir, just to add quickly.
    Senator Perdue. It sounds like she might have prepared for 
that question, Chief.
    [Laughter.]
    General Goldfein. It is a big deal for us.
    Senator Perdue. It is a big deal. I agree.
    General Goldfein. So Secretary Wilson and I hosted our 
four-star conference last week, and the guest speaker was Eric 
Schmidt. We asked him to talk to us about how we bring the 
future faster.
    I am often asked the question, hey, Chief, 9 years of 
continuing resolutions (CR)--what does that do to you? I tell 
them it really wreaks havoc on our ability to plan for the 
future.
    But to your question, then I always follow up and say, but 
let me tell you what it does to our industry partners. So I 
have to go to a CEO [Chief Executive Officer] and tell them, 
listen, I do not know what I am going to buy next year. I have 
not gotten my money yet, but I am hoping I will get it in the 
last half of this year. Then I am going to buy as many weapons 
as I can.
    Senator Perdue. But if I do not, we are going to interrupt 
the current plan.
    General Goldfein. That is right.
    I cannot give you any projections of what the future looks 
like. So you need to keep this very sophisticated workforce 
occupied with this level of uncertainty. And so it goes 
directly.
    So what I would offer to you, in addition to the 
Secretary's great points, is that the John McCain National 
Defense Act that you passed sent such a powerful signal to 
airmen, soldiers, sailors, and marines that you are behind 
them. It sent an equally powerful signal to industry that says 
you can now plan your future and manage your workforce to get 
us what we need.
    Senator Perdue. I will give you one more to send to them. 
This year, we did something we have not done in 22 years, and 
we did not get 100 percent, but we got to 90 percent funding by 
the end of August because we stayed here in August. You can 
tell your service people that we are on the wall that month. 
This is not something that is never going to be done again. We 
funded the military this year without a CR, and we know now 
what it is doing.
    Speaking of that, I asked an F-22--I am sorry. I am past 
time.
    Senator Sullivan. No. Go ahead.
    Senator Perdue. No. I will come back to that in the second 
round.
    Senator Sullivan. It is a good question.
    Senator Perdue. No. I want to come back and brag on the 
State of Alaska.
    Senator Sullivan. If you promise to stay for the second 
round.
    Senator Perdue. Yes, I will. Thank you. I am sorry.
    Senator Sullivan. Well, I do want to mention that Senator 
Perdue and Senator Ernst have been leaders on this issue that 
he was just talking about. They are both on the special 
committee that is going to hopefully fix our budget problems. 
We have made progress this year, and nobody benefits more than 
the military.
    We will start here with round two, which I think is great.
    I do want to just do a small correction for the record. 
General, I appreciated your opening statement. I will mention, 
though, even if one deploys, gets combat fit, gets imminent 
danger pay, there are combat vets--and I do not consider myself 
one particularly in the category of somebody like you. So I am 
just saying that for the record. I think it is important 
actually because we know who the real folks are, and I always 
want to keep that record straight.
    Madam Secretary, I know you have been focused on the 
acquisition issues. Can you a little bit more unpack what you 
were talking about in your opening statement on this issue, 100 
years to 56 years? I did not fully follow that. I know it is 
important. I know you have been really focused on it. Senator 
Perdue just asked a question. But what were you getting at 
there?
    Secretary Wilson. Senator, we have a great team that we put 
together. Some of them are military, some civil servants, and 
of course, Will Roper who is our Assistant Secretary for 
Acquisition. They all got together 6 months ago now and they 
said, all right, what should be our goals. What should be some 
of the things we are trying to achieve to get things faster? 
One of them was to say let us look at all of our programs and 
try to strip 100 years out of our schedules by using the new 
authorities that you have given us, by trying to tailor our 
acquisition authorities so that we get things faster. Usually 
when you get them faster, they also cost less. Time is money. 
And so they are at 56 years so far and they have got another 6 
months to go to keep stripping time out of schedules.
    Senator Sullivan. When you went through that exercise, did 
you see any additional authorities that you think you need from 
us? Again, there is a lot of John McCain here in this hearing, 
but as you know, he was very focused on this issue. In the last 
few NDAAs, we did give significant authorities back to the 
service secretaries and the chiefs to make things work. What 
else do you need?
    Secretary Wilson. Senator, we are now in the point of 
execution, and I think we are trying to execute in a way that 
is fast and smart. Also, the other part that we said was we 
want to be even more transparent than we are with traditional 
acquisition so that we are fully open about what we are doing 
and what results we are getting.
    I do think that there is tremendous promise in several of 
these, particularly prototyping. The reason why is that in 
traditional acquisition, you would come up with an analysis of 
alternatives, and you would be 3 or 4 years into this and all 
you really got are stacks of paper and studies. You really do 
not know what is technically possible yet.
    If you prototype, you develop a real engineering technical 
understanding of what really is within the realm of the 
possible. We are using it for next generation engines. We got a 
competitive prototyping with two of the big engine 
manufacturers to develop an adaptive engine that gets 10 
percent more thrust, 25 percent more fuel efficiency. They may 
not get quite there, but we have said build us something. See 
what you can get, and then it will inform our requirements for 
a whole next generation of Air Force engines. We are the 
biggest buyer of fuel in the Defense Department. A 25 percent 
increase in fuel efficiency and a 10 percent increase in 
thrust--that is a game changer. And so we are just trying it.
    Senator Sullivan. I want to go to the GAO study.
    General Goldfein. Sir, I just wanted to reemphasize the 
point, Senator Shaheen, you made. The other thing to your 
question is sequestration is still the law of the land. Just to 
make your point again, ma'am, we grounded the United States Air 
Force in 2013. We created no fly zones across the United States 
of America where we stopped flying. We still have not 
recovered. If that comes back, it will undermine and devastate 
all the good work that you did in the recent bill.
    Senator Sullivan. I agree with Senator Shaheen on that 
certainly.
    Let me go to the GAO study as it relates to the F-22's. Mr. 
Pendleton, there are a bunch of important aspects to that. That 
still is an incredible aircraft. The President talks about it a 
lot. It is a remarkable aircraft. Again, you cannot look back 
and kind of wring your hands, but that was probably a pretty 
significant mistake to curtail the production and deployment of 
that aircraft.
    Can you summarize quickly your recommendation? It is my 
understanding that the Secretary and the Chief agree with those 
or that you have concurred in those. How are you looking to 
implement these recommendations that relate to the small fleet 
that is not maximized, the organization with regard to the Air 
Force, the mission, as you said? What can we do? This is still 
a tremendous fifth gen aircraft. You know, your work is 
important in this. Can you talk about that quickly? If there 
are any comments from the service Secretary or the Chief, I 
would welcome that too.
    Mr. Pendleton. Yes, sir. Thank you.
    We have two major findings. We found that the organization 
of the small fleet could be suboptimal.
    Senator Sullivan. Did you find that it is suboptimal?
    Mr. Pendleton. Yes.
    Senator Sullivan. Not that it could be but it currently is?
    Mr. Pendleton. We think is suboptimal, yes.
    Senator Sullivan. That is important.
    Mr. Pendleton. Locations with fewer squadrons, people, 
aircraft had lower mission capability rates than those with 
more. Again, this was an unclassified version of a classified 
report. So I am having to be a bit general about that.
    We recommended that the Air Force take a look at the way 
they had the F-22 force organized. You can go a couple of ways. 
You can collocate more aircraft if you want to and get some 
efficiencies we think from that. You can also look at the way 
that you deploy packages from within the squadron. I mean, what 
was happening is the Air Force was breaking out a portion of 
the squadron and sending that forward, and it is basically 
leaving what is left broken as well. So you could augment that. 
We tried not to be too specific in the recommendation so the 
Air Force would have some room to maneuver on that.
    The second had to do with the way the Air Force is 
utilizing the F-22. It is being used for a lot of missions that 
we do not think contribute to its training for a high-end 
fight, things like alert and appearing in exercises, as I 
mentioned in my opening statement, that really do not give them 
much value. We think that needs to be relooked as well and made 
recommendations. The Air Force did concur with us, and I know 
from speaking to Secretary Wilson, they are thinking about 
this.
    Senator Sullivan. So are you looking to implement these, 
General Goldfein or Secretary Wilson?
    General Goldfein. Yes, sir, we are. We are looking. It is 
interesting that when you go back to 2010, we retired 10 
squadrons, 252 aircraft in 2010 based on a demand signal that 
shifted those resources into other areas, space, cyber, ISR 
[intelligence, surveillance, and reconnaissance], nuclear 
enterprise. Those were strategic trades that we had to make at 
the time if you remember what we were in in that time frame. 
But we did not take down any flags or we did not take down any 
squadrons. We just made all the squadrons smaller. We got to a 
point where we were and are less efficient than we can be with 
larger squadrons when it comes to achieving and meeting the 
demands of the National Defense Strategy.
    So we are absolutely looking at not only the F-22 but all 
of our weapon systems to determine how can we get back up into 
that optimum solution. But we also understand that that is a 
discussion that we have to have with this committee and with 
the Congress before we do anything.
    Senator Sullivan. Does that not help the maintainer issue 
as well if you consolidate some of the F-22's in terms of where 
they are located?
    General Goldfein. It does, and it is across the board. It 
is maintenance. It is the back shop maintenance. It is all 
those parts that you need to be able to project air power not 
only for the F-22, but for all the weapon systems.
    But for us, i.e., in the Active Duty and in the Air 
National Guard and Reserves, what we found is that 24 assigned 
aircraft is the optimum solution to be able to do the National 
Defense Strategy business. Many of ours are now at the 18 
number, and so we need to build those up to 24. We need to hit 
an optimum solution in the Guard and Reserve as well. So that 
is all part of our planning.
    Senator Sullivan. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    DOD's final report in 2018 on organization management 
structure for the national security space components of the 
Department of Defense--I had to read it because it is such a 
long title. But it stated basically that space operations force 
will include space personnel from all Military Services, 
including Guard, Reserve, and civilians.
    I wanted to ask you, Secretary Wilson, about the current 
role of the Air National Guard in the space domain. If you 
could elaborate on how you expect that role to evolve in the 
future.
    Secretary Wilson. Senator, we have about 1,000 guardsmen 
and about 1,000 plus or minus reservists who are some part of a 
space mission. I think we are at a point where the Defense 
Department is looking at how do we organize this going forward. 
The President has initiated the process to establish a U.S. 
space force and put out there a bold vision with respect to it. 
We all know that we can no longer use space as a function. It 
is a warfighting mission. So those discussions are ongoing.
    I believe that it is important for the Guard--sometimes I 
think when we look at some of these issues, we forget the Guard 
and Reserve, and they are an important component of the total 
force and a particularly component of the United States Air 
Force. We want to make sure that that is in the conversation.
    Senator Shaheen. I appreciate that. Certainly there has 
been some interest from our Air Guard in New Hampshire about 
what is going to happen in this arena. I know that in your 
September memo on the proposal to transition to a space force, 
you discussed the potential to transition National Guard units 
to a Reserve component. I assume there is more discussion going 
on on this.
    Secretary Wilson. Senator, there is a lot of discussion 
going on. Our team may have misused the Reserve component to 
being both the Guard and the Reserve. So the intention, though, 
is to make sure that as we address the space force that we do 
not ignore the fact, while it is small, we do have components 
in the Guard and Reserve who are engaged in space.
    Senator Shaheen. That is great. I appreciate that.
    As I said, there has been a great deal of interest in New 
Hampshire on what is going to happen there. I am sure that is 
true of other States as well.
    In terms of the number of squadrons, you have called for 
growing the Air Force from its current size to 386 squadrons by 
2030. Under that plan, tanker squadrons would see significant 
growth. They would increase from 40 to 54 squadrons.
    Can you talk about why you see this as being important?
    Secretary Wilson. Senator, the analysis that we did was 
based on the National Defense Strategy, which sets out for us 
what do we need to do, what are the missions we need to 
accomplish, and then what are the most important operational 
problems.
    But when you look at those missions, there are really five 
things we have to do at the same time. We have to defend the 
Homeland. We have to maintain a safe, secure, and effective 
nuclear deterrent. We have to be able to defeat a peer while 
also deterring a rogue state and then maintain pressure on 
violent extremist organizations at the same time. So it is all 
five of those things.
    Currently, when we look at a peer threat, Russia is very 
strong. China is modernizing very rapidly. When we project into 
the 2025-2030 time frame, our pacing threat we believe is 
China. So the challenge in the Pacific is the tyranny of 
distance, and that means tanker squadrons are very important. 
So that I believe is what in the numerous iterations of 
modeling and simulation, the war games we did really drive the 
need for tankers.
    Senator Shaheen. Well, I appreciate that especially with 
Pease being one of the bases that is going to get some of the 
new tankers.
    Can you also talk about the interests that we have in 
making investments to protect that tanker force during a 
conflict? Because I know there has been some concern about what 
we need to do prospectively to make sure that we are doing 
that, should we have an adversary that we need to protect those 
tankers against.
    Secretary Wilson. Senator, I would not want to go into too 
much detail in an open session. But the intention is for new 
tankers to be more defendable than their predecessors. I do not 
know if the Chief can go any further than that.
    General Goldfein. I would just say in the Joint Chiefs, you 
know, I give Chairman Dunford a lot of credit for leading the 
Joint Chiefs as we have been looking at global campaign plans. 
It has allowed us to move off a platform discussion into more 
of multi-domain operations that looks at a platform as part of 
a family of systems that all connect together. So the 
discussion then about how we would defend a tanker or any other 
part of the family is an integrated joint and allied solution 
going forward as opposed to the platform discussion which is I 
think more 20th Century than where we are headed.
    Senator Shaheen. So, Mr. Chairman, is there any plan to 
have a classified follow-up hearing or briefing to this hearing 
so that we can learn more about some of the issues that have 
been raised?
    Senator Sullivan. Absolutely. I think that is a great idea. 
We will do it.
    Senator Shaheen. Good. That is great. Thank you.
    Thank you very much.
    Senator Shaheen. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chairman.
    We have spent a lot of time talking about maintenance this 
morning, and I appreciate that very much. We all value our 
maintainers very much, and I know it is very different having 
maintainers in a transportation ground unit than having 
maintainers in your squadrons. But just really understanding 
how very important it is.
    Secretary, in your written statement, you did reference 
some of the challenges that you are facing in regard to 
sustainment of weapon systems, of equipment, particularly with 
regard to the maintenance and the logistics. I was pleased to 
see that the Air Force does continue to look for ways to 
improve efficiency and cost effectiveness.
    So again going back to the Emerging Threats and 
Capabilities, one of the things that we spend some time talking 
about is artificial intelligence. We do continue to hear about 
the potential benefits of AI [artificial intelligence] and 
machine learning on issues such as predictive maintenance. Is 
the Air Force currently utilizing these types of technologies, 
or do you think these emerging technologies present maybe a 
cost effective means of improving maintenance and logistics 
within the Air Force?
    Secretary Wilson. Senator, a very good question. We are 
actually testing out what we call conditions-based maintenance 
plus, which involves both predictive analytics and also sensing 
on aircraft. We are trying them initially on the B-1 and the C-
5, and we are seeing a significant reduction in cost but also 
about a 30 percent reduction in unscheduled maintenance. So 
this is you are predicting when a part is likely to fail and 
you change that part when it is in for its inspection rather 
than waiting for it to fail out on the flight line. We are now 
trying to develop the apps to move that and propagate it 
throughout the rest of the fleet.
    We are also doing some other things with respect to driving 
down the costs. We set up an office--and we will give it a 2-
year run and then take a look as to how much it saved us--
called the Rapid Sustainment Office to try to use advanced 
manufacturing technologies, 3-D printing of metals, but also 
things like cold spray technology to repair parts rather than 
replace them.
    Just as one example, there was a recent article about some 
of our airmen out in California who--we have a part that heats 
water on the back of the KC-10. The handle keeps breaking. They 
do not manufacture anymore because they only buy maybe five of 
them a year. They are pretty expensive to go back and have 
somebody tool it the old way. In fact, Defense Logistics Agency 
was quoting some completely unreasonable cost. And so we 3-D 
print them for 50 cents. So those kinds of things can drive 
down the cost.
    Senator Ernst. Since you brought that up, I was out at 
Twentynine Palms earlier this year, and we had that discussion 
about 3-D printing of parts to make it readily available for 
our men and women that are out in the field. They are forward-
deployed. The supply chain is not as easy in those types of 
environments.
    Any thoughts then on patents? There is a lot of concern 
from industry that we will be able to replicate various parts, 
replacement parts, and not give full credit to the industries 
that have originally manufactured and designed those parts. Any 
thoughts on where we should be going in that space?
    Secretary Wilson. Senator, we are trying to go to a place 
where we get the intellectual property or negotiate for a 
license to build things. Just in the first quarter of last 
year, we had 10,000 requests for parts where there was not a 
single bidder. You look at something like the C-5. It is not 
being produced anymore. The parts are not being produced 
anymore. So the door handle breaks on the back of a C-5 and you 
do not have a parts supplier. So we are 3-D printing those in 
metal.
    We are also using technologies now--the Army, Navy, and Air 
Force are working together on advanced manufacturing. But the 
chafing on rivet holes on aircraft or on the hydraulics lines 
to be able to repair those by low temperature but high speed 
spraying of nanoparticles of metal to basically repair the 
metal rather than replace the part. It is much less expensive 
and keeps our mission capable rates higher.
    The Rapid Sustainment Office is intended to use these 
technologies, rapidly get them into the field onto our 
aircraft, and reduce the costs and increase our mission capable 
rates.
    Senator Ernst. I love that. Incredible cost savings and 
innovation and to be able to do it right on the spot too, very 
good. Thank you very much.
    Senator Sullivan. Senator Perdue?
    Senator Perdue. Following up on that, I want to applaud 
what you guys are doing in shared services. Back in the 1980s, 
manufacturers in the commercial space did this where they can 
have multiple divisions. You have a technical specialty. You 
develop that specialty. Before, every one of the divisions 
would have that. They would protect it. They were jealous of 
it. We took it away, created shared services. When you are 
doing C-130J maintenance at an Air Force base for the Navy, I 
applaud that. I think that is a way for the future.
    I want to move on. With 3-D printing, the Marines right now 
are doing a great job, and their depots are doing the same sort 
of thing. The supply chain is gone. Nobody is making the part. 
3-D printing--they are really gearing that up. I would 
encourage the Air Force to partner with your sister services to 
make sure that we are at the cutting edge of that.
    Chief, I have a question.
    I would second Senator Shaheen's comment about a classified 
briefing on the same topic.
    Chief, you may want to take this off, but hypersonics and 
directed energy. I know you guys are working on that. General 
Hyten gave us an update earlier this year about what the Air 
Force is now seeing that our near-peer competitors are doing. 
Can you give us an update on that development on those two 
areas?
    General Goldfein. Yes, sir. Probably the most important 
development has been a discussion that the three service 
secretaries have had about how we partner together on areas 
like hypersonics and directed energy. And so what I want to do 
is maybe, ma'am, turn it over to you and then I will follow up 
at the end if you like.
    Secretary Wilson. Senator, the three service secretaries--
we get together. We actually like each other and get together 
for breakfast every 2 weeks. It terrifies the staff.
    One of our early meetings looked at where do we have 
science and technology investments that are similar and can we 
work together better. One of the first ones we identified was 
hypersonics. We got our teams together. We rapidly developed a 
memorandum of understanding where we will take best technology, 
go fast, share results, and work together. As a result, on 
hypersonics, the additional funding you allowed us to put in in 
2017 and 2018 is about $107 million in additional funding, but 
by using a Navy-developed warhead for the Army and putting it 
on an Air Force system, we are actually going to prototype a 
system 5 years faster and get it out there in 2021.
    Senator Perdue. Is that a defensive----
    Secretary Wilson. It is called Hacksaw. It is an offensive 
weapon.
    Senator Perdue. With regard to the F-22 that we talked 
about earlier, I had a privilege to visit an advance squadron 
up in Alaska. The colonel gave us an update about how CRs 
directly impact them. They had training going on. They had to 
interrupt it, bring them back, and they had it documented down 
to the cents how much it cost them.
    But we talked about the use of the F-22, and you mentioned 
it in your opening comment that we are using F-22's, our fifth 
gen, to chase Tu-95's around up there on the line of 
demarcation. I know, Secretary, you guys are talking about a 
light attack aircraft I believe that you are developing now to 
take on some of these more mundane tasks and use the fifth gen 
for mainly training to do what you mentioned in your opening 
remarks. Can you update us on the light attack program?
    General Goldfein. So we completed two experiments in the 
light attack. The second line of effort in the National Defense 
Strategy talks about strengthening our allies and partnerships 
because when it comes to global competition and war, we have 
allies and our adversaries generally do not, and it is a 
strategic advantage. So we as a service, when we looked at from 
the air component standpoint how can we leverage our ability 
because what I hear very often from my international air 
chiefs, especially those that are not into the fourth or fifth 
generation--either they cannot afford it or not getting into 
it. But yet, they have violence within their borders. The 
strategy is to drive violence down the point where it can be 
handled within the sovereign territory.
    The light attack experiment was primarily about line of 
effort two and allies and partners and how can we produce a 
commercial off-the-shelf that is a low-end system that is very 
affordable, that has low costs when it comes to sustainment, 
and that can help our allies and partners. What we have learned 
in the past is that if we do not buy some, they will not. And 
so as we look at it internal to our Air Force--the Marines are 
looking at this as well. This a joint effort going forward. 
This is an opportunity for us to actually spread our coalition, 
if you will, to be able to get at the strategy and line of 
effort number two.
    Within the Air Force, we are also looking at it to the 
point--exactly what you described, which is can I now go after 
those lower-end missions with a tailored commercial off-the-
shelf kind of product that will then free the high-end assets 
to focus on the training and execution of the high-end work we 
need to do.
    Senator Perdue. Thank you.
    Senator Sullivan. We have Senator Kaine here, and I am glad 
he made it back on time. It is an important hearing and I 
appreciate you being here.
    I am scheduled to go preside right at 11:00. So I am going 
to have either one of my colleagues on the Republican side or 
Senator Kaine take over the hearing.
    I do want to thank the witnesses again for this very 
important hearing. There will be QFRs [Questions for the 
Record]. If we can get those back in a timely manner. I think 
Senator Shaheen's idea, which we all support, on a classified 
version of this hearing, respecting your time, Madam Secretary 
and General Goldfein, I think that would be a good follow-up.
    So I am going to pass the gavel to one of my colleagues 
here. I will let them fight over it. But again, I want to thank 
all of you. I would normally be here, but the presiding officer 
duty is something I am not supposed to be late for and I think 
I am already late. So thank you very much.
    Senator Kaine [presiding]. I will just be very brief. I 
apologize for missing. I was introducing a noncontroversial 
nominee at a Judiciary Committee hearing. But just because my 
nominee was not controversial, that did not mean that there 
were not other controversies that I was unaware of when I 
walked into the room. So that is why I am a little bit late, 
and I do not want to belabor points that have been asked.
    Let me just ask this. I indicated in my opening comment 
that I am worried about how we are planning on the readiness 
side with respect to infrastructure. I cited the Air Force 
example. I could have cited other examples, the Navy base in 
Richmond whose main road in and out to the center of naval 
power in the world is increasingly under water just based on 
normal tidal action, not even to extreme weather events.
    Perhaps if you could each kind of talk about in the Air 
Force portfolio--I used the example of permafrost melting at 
the one base and how that changes MILCON--how you are dealing 
with some of these weather-related effects, extreme weather 
events, whatever the cause, as you are thinking about MILCON 
projects going forward. If you would each address that, that 
will be my only question.
    Secretary Wilson. Well, Senator, with a hurricane headed 
for Eglin and Tyndall today, we are dealing with those things.
    Let me take the broader issue about infrastructure because 
we did what I thought was a good piece of work, stewarded by 
our Assistant Secretary for Installations and Environment, John 
Henderson, but done by a group of captains initially that said 
we now have data on all of the infrastructure in the Air Force, 
every installation, every building on it down to when the roof 
needs to be replaced. They did some modeling and simulation on 
it, on how we can change the way we maintain our 
infrastructure, and they made some recommendations.
    One is we have been funding the worst infrastructure first. 
So we wait until it gets really expensive to fix, and then we 
fix it. That is the wrong strategy. So we need to fix it like 
most commercial industry does, before it gets to be really 
expensive.
    The second is they recommended taking the 5 percent of our 
worst infrastructure off the books. So the stuff that is 
hanging around from the Korean War that we should not be 
maintaining anymore. And so we actually are going to be putting 
some money for destruction and disablement into our budget.
    The third is we are going to have to tick up our 
replacement value, our funding of our infrastructure a bit over 
the long term. But if we do those things over the long term, 
our infrastructure gets much better over time and we are able 
to keep the infrastructure in much better shape.
    So they have given us a strategy. We have the modeling and 
simulation of our facilities which tells us.
    The final thing that we also are doing is every facility 
will have a master plan. Our commanders change too quickly to 
have just what the commander wants now because those projects 
are always in the future. So we have a master plan for every 
facility, and we will continue to execute projects on that 
master plan.
    So there are a number of things that we are doing to 
improve the management of our infrastructure and planning 
associated with it.
    Senator Kaine. Do other witnesses have comments to add on 
this question? General?
    General Goldfein. Sir, just one comment to add to the 
Secretary's. We also, as a land-based force, project power, of 
course, from our bases. So we need to be the best in the world 
at defending those bases. And so the Secretary and I have a 
really concerted effort over the course of this year looking at 
integrated base defense in addition to the investment we are 
making in MILCON projects because not only do we have to invest 
in it and build it, we also have to defend it. That is central 
to who we are.
    Senator Kaine. Thank you.
    Mr. Pendleton, I have one last question for you. You 
testified before the SASC [Senate Armed Services Committee] 
last year on the tragic Navy collisions and analyzing what was 
at fault there and what we could do better.
    Are there parallels in the work that you did on those 
after-action analyses and things that we should be focused on 
with respect to the Air Force, you know, aviation mishaps, gaps 
in training? Are there things that you learned in that capacity 
that we should apply to the Air Force as well?
    Mr. Pendleton. There are parallels, but I think that what 
happened with the Navy is the situation in Japan just got away 
from them. We had warned a couple years before, as you recall 
probably from my testimony, that they needed to take a look at 
the risk they were taking out there, and they did not listen to 
us. And so I am not seeing it with the Air Force.
    But now having said that, there are parallels, shortfalls 
of people, shortfalls of maintainers, running equipment hard, 
having it take longer to fix when you bring it in, and too 
little time to train. I mean, that was one of the big problems 
with the Navy, as I am sure you recall. They were working so 
hard, they did not have time to train on things as basic as 
seamanship.
    Like the Navy, also the Air Force has a demand problem, 
sir. I mean, the demands on it have continued to remain high, 
and like I said during the Navy hearing, I think it is going to 
be difficult for them to rebuild unless some of the demands are 
moderated.
    Senator Kaine. Thank you.
    Do my other colleagues have any additional questions?
    Well, with that, we really appreciate your testimony. We 
will keep the record open until 5 o'clock tomorrow, Thursday, 
in case any colleagues have additional questions for you that 
they can direct your way. We would appreciate your prompt 
response.
    But with that, the hearing is adjourned.
    [Whereupon, at 11:03 a.m., the subcommittee was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Dan Sullivan
        mission capable rates and the secretary of defense goals
    1. Senator Sullivan. Secretary Wilson, how, if at all, are Air 
Force mission capable rates unique to the Air Force and different from 
how other services, such as the Navy, calculate it? How are Air Force 
mission capable rates different from aircraft availability rates?
    Secretary Wilson. The Office of the Secretary of Defense for 
Personnel and Readiness coordinated with the Air Force, Navy and Marine 
Corps to come up with a standardized method of calculating and 
reporting mission capable rates to achieve the Secretary of Defense's 
goals. This standardized method will ensure that all services are held 
to the same standard and report comparable rates. The Air Force will 
report progress towards achieving 80 percent mission capability to the 
Secretary of Defense and Deputy Secretary of Defense on a monthly basis 
beginning in November.
    Mission Capable rate and Aircraft Availability rate differ with 
respect to the sample size they measure. The Mission Capable rate 
measures the number of Primary Mission Aircraft Inventory (commonly 
referred to as ``combat coded'') aircraft that are mission capable and 
physically possessed by a unit. Mission Capable rate excludes those 
aircraft undergoing depot-level maintenance. The Aircraft Availability 
rate measures the mission capability of the entire fleet, including 
those assets designated towards training and test missions. As Aircraft 
Availability is an enterprise view of the entire fleet, it includes 
those aircraft undergoing depot-level maintenance in its calculation.
    While these measures are important, mission capable rates for 
aircraft are only one component of readiness. The Air Force is focused 
on improving the readiness at our operational squadrons to 80 percent 
C1 or C2.

    2. Senator Sullivan. Secretary Wilson, the Secretary of Defense 
directed the Air Force to achieve a minimum of 80 percent mission 
capable rates for fiscal year 2019 for the F-35, F-22, and F-16, while 
simultaneously reducing these platforms' operating and maintenance 
costs every year starting in fiscal year 2019. What are the current 
Mission Capable and Aircraft Availability rates for the Air Force 
platforms identified by the Secretary of Defense?
    Secretary Wilson. Current mission capable and aircraft availability 
rates as of the end of fiscal year 2018 are as follows. Rates are for 
period 1 October 2017 to 30 September 2018.

    F-16 C/D: Mission Capability (Combat units only)--70%
    F-16 C/D: Aircraft Availability--62%
    F-22A: Mission Capability (Combat units only)--55%
    F-22A: Aircraft Availability--46%
    F-35A: Mission Capability (Combat units only)--72%
    F-35A: Aircraft Availability--69%

    3. Senator Sullivan. Secretary Wilson, how does the Air Force 
interpret the Secretary's 80 percent mission capable rate goal--will 
the Air Force be assessing Mission Capable rates or Aircraft 
Availability rates against the Secretary's goals and will the Air Force 
be assessing the entire squadron or just the lead force packages (lead 
UTCs)?
    Secretary Wilson. The Office of the Secretary of Defense for 
Personnel and Readiness in coordination with the Air Force, Navy and 
Marine Corps developed a standardized method of calculating and 
reporting mission capable rates to achieve the Secretary of Defense's 
goals. This standardized method will ensure that all services are held 
to the same standard and report comparable rates. That rate, as 
directed by the Secretary of Defense will be the mission capable rate.
    The rate will be measured as it applies to the entirety of the 
combat coded units, not only the lead force packages within those 
units.
                                  f-35
    4. Senator Sullivan. Secretary Wilson, what specific actions is the 
Air Force taking in coordination with the F-35 Joint Program Office to 
achieve the Secretary's 80 percent mission capable goal for the F-35 by 
fiscal year 2019 and beyond?
    Secretary Wilson. The Air Force is accelerating depot repair 
capability, decreasing component repair backlog and increasing spares 
availability. These actions contribute to a 7.7 percent gain in the F-
35 Mission Capability rate at no additional cost beyond what the Joint 
Program Office has already programmed and received from the Services. 
The Air Force is the lead service driving delegation of maintenance 
authorities to the unit level to allow flightline maintainers to 
quickly affect repairs and return aircraft to Mission Capable status.

    5. Senator Sullivan. Secretary Wilson, is the goal achievable?
    Secretary Wilson. The goal is achievable if the reprogramming of 
funds in fiscal year 2019 is approved.

    6. Senator Sullivan. Secretary Wilson, what actions is the Air 
Force taking to prioritize readiness for operational F-35 units, as 
Secretary Wilson stated at the hearing?
    Secretary Wilson. Our operational fighter units already have the 
highest priority in our inventory. We will continue to advocate to the 
Joint Program Office for the following: 1) delegation of additional 
maintenance authorities to unit level commanders, 2) reduction in depot 
repair cycle time for components, 3) and improvement in supply chain 
performance. We will strongly promote contract language that meets the 
readiness needs of the Air Force. We will balance our operational tempo 
across all platforms to ensure our operational units are leading the 
fleet.

    7. Senator Sullivan. Secretary Wilson, to what extent have the 
challenges associated with the F-35's Autonomic Logistics Information 
System (ALIS) affected Air Force fleet readiness?
    Secretary Wilson. Work arounds, engineering response delays, supply 
visibility, and data integrity continue to burden the men and women who 
sustain the F-35 in the U.S. Air Force. ALIS data integrity issues 
consistently rank in the top 10 of all Air Vehicle Availability 
drivers. Our outstanding airmen continue to find manual ways to work 
around system inefficiencies, with impacts on readiness levels.
    The Air Force is also working closely with Lockheed-Martin and the 
Joint Program Office on a project to accelerate software improvements 
with the ALIS system.

    8. Senator Sullivan. Secretary Wilson, what specific measures are 
being taken to enhance ALIS' predictive maintenance capabilities?
    Secretary Wilson. We are pursuing improvements to ALIS through an 
agile software development process. The Air Force is particularly 
interested in improvements on Prognostic Health Management (PHM) to 
bring the full potential of this weapon system to the warfighter. The 
Air Force is a voting member on the PHM Steering Board and will 
continue to ensure that warfighter enhancements are prioritized.

    9. Senator Sullivan. Secretary Wilson and General Goldfein, have 
you thought about using early-production F-35s--planes that will never 
be combat-coded--for adversary air to provide the ``high-low'' mix (5th 
Gen and 4th Gen) that our adversaries will soon have?
    Secretary Wilson and General Goldfein. Based on the Fiscal Year 
2019 President's Budget (Current Program of Record) we have not made 
plans to use early production F-35s for adversary air. As F-35 
production continues and the Air Force F-35 fleet capacity grows, we 
will continue to evaluate options to improve our training capabilities.

    10. Senator Sullivan. Secretary Wilson and General Goldfein, what 
are the plans to bring some of those F-35s to JPARC and the 18th 
Aggressors, and not just Nellis AFB?
    Secretary Wilson and General Goldfein. Currently, two combat-coded 
F-35 squadrons will base at Eielson AFB and receive aircraft starting 
in 2020 and completing in 2022. No F-35s are currently planned for the 
18 AGRS. We will continue to evaluate a potential need for 5th Gen 
aggressors at JPARC and the best method to meet that need.
                     f-22 training and organization
    11. Senator Sullivan. Secretary Wilson, GAO's report on the F-22 
noted that an Air Force analysis conducted in 2016 determined that, 
based on current aircraft availability rates, pilots in an F-22 
squadron with 21 primary mission aircraft need 270 days of home station 
training each year to meet their minimum annual continuation training 
requirements. However, F-22 pilots were on average falling far short of 
this mark and had a larger training deficit than F-15E and F-16 pilots. 
The Air Force concurred with GAO's F-22 recommendation to identify and 
assess actions to increase F-22 pilot training opportunities for the 
high-end air superiority missions, including looking at adversary air 
support options and reducing tasking and non-core missions. During the 
hearing, the Air Force stated it was taking actions to implement GAO's 
recommendations. What actions has the Air Force taken to address GAO's 
recommendation?
    Secretary Wilson. Commander Air Combat Command (COMACC) is 
proactively addressing the most advantageous use of F-22 for high-end 
training/readiness opportunities and exercises that maximize: 5th 
generation capabilities, opportunities to meet the Ready Aircrew 
Program (RAP), and minimizes using the F-22 where it does not increase 
readiness for pacing threats. Air Combat Command (ACC) and HQ USAF have 
proposed adversary air support options in the Department of Defense 
budget process starting in fiscal year 2019 and continuing across the 
Future
    Years Defense Plan (FYDP). Currently the F-22 pipeline production & 
and absorption are healthy and meeting requirements.
    Hurricane Michael will affect short term F-22 pilot qualifications, 
with Units to be located at Eglin AFB, Florida, with reachback to 
Tyndall AFB:

    <bullet>  The 43rd and 2nd Fighter Squadrons' F-22 Fighter Training 
and T-38 Adversary Training Units will relocate operations to Eglin 
AFB. Academic and simulator facilities at Tyndall AFB will be used to 
support training requirements, as well as Tyndall AFB's surviving low 
observable maintenance facilities

    <bullet>  The 372nd Training Squadron, Detachment 4, will relocate 
with the F-22 Fighter Training Units to Eglin AFB.

    Decisions in response to Hurricane Michael consider the 
recommendations of the GAO 18-190 report, to optimize the F-22 fleet 
across the total force.

    12. Senator Sullivan. Secretary Wilson, understanding that the 270 
days needed for annual training is based partially on aircraft 
availability, please provide data on the training days required and 
achieved for F-22 pilots in 2018 and projected for 2019. To what extent 
are things getting better or worse and what are the contributing 
factors?
    Secretary Wilson. Overall the F-22 is trending positive. The F-22 
is not unique in needing a wide variety of training, however 5th 
generation aircraft do have specialized training requirements. In 
context the original 270 required training days was the result of a 
2016 Air Combat Command (ACC) study to identify F-22 training 
shortfalls unique to that fiscal year; this study was cited in GAO 18-
190.
    ACC closely looked at ways to improve F-22 training efficiency and 
began implementing scheduling changes in fiscal year 2018. ACC 
implemented several initiatives including an increased F-22 fleet wide 
coordination to prioritize high-end training events, reexamination of 
deploy-to-dwell ratio for F-22 to retain higher readiness, and 
individual units prioritizing their training focus based on National 
Defense Strategy (NDS) pacing threats and planned deployment 
scheduling. These collectively increased scheduling efficiencies to 
``buy back'' home station training days for increased operations and 
maintenance sortie generation. The result has been an approximate 10 
percent reduction in required F-22 training days for Ready Aircrew 
Program (RAP) specifically. However, fiscal year 2018 analysis from ACC 
is incomplete for specific impacts.
    For fiscal year 2019 ACC estimates 250 training days required for 
F-22 [using static assumptions and deploy-to-dwell timing] combat coded 
squadron's RAP. However, ACC's implementation of Dynamic Force 
Employment (DFE) concepts for the F-22 fleet includes factors such as: 
continued refinement of scheduling efficiencies prioritized for high-
end 5th generation readiness including low observable maintenance, how 
the F-22 forces are packaged and deployed, as well as flying hour 
program adjustments and weapon system sustainment to improve readiness. 
Combined, the expectation is that these efforts continue to decrease 
required training days in and beyond fiscal year 2019, and increase 
aircraft availability resulting in increased F-22 readiness across the 
total force.

    13. Senator Sullivan. Secretary Wilson, the Air Force concurred 
with GAO's F-22 recommendation to identify and assess alternative 
approaches to organizing F-22 squadrons, including looking at options 
to consolidate the fleet and revising the design of deployable units. 
During the hearing, the Air Force stated it was taking actions to 
implement GAO's recommendations. What actions has the Air Force taken 
to address GAO's recommendation?
    Secretary Wilson. The Air Force is assessing if changes to the F-22 
home station organizational structure and/or deployment practices would 
better meet global combatant commander requirements. The Air Force was 
already assessing deployment practices to meet NDS implementation 
guidance related to employing our forces more dynamically. 
Additionally, as part of our effort to build the Air Force We Need to 
meet the NDS challenges--we are assessing optimal force structure and 
new force designs pertaining to squadron composition of not only our 
fifth-generation fleet, but all operational squadrons.
                                 jparc
    14. Senator Sullivan. Secretary Wilson and General Goldfein, what 
specific plans do you have to start executing elements of the JPARC 
2025 to help modernize the Joint Pacific Alaska Range Complex?
    Secretary Wilson and General Goldfein. JPARC will be one of two 
level 4 ranges in the Air Force. This includes adding advanced threat 
systems in the near term. Longer term spending includes the procurement 
and fielding of electronic warfare capabilities and a Live Mission 
Operations Capability (LMOC).

    15. Senator Sullivan. Secretary Wilson and General Goldfein, what 
elements are included in this year's upcoming budget and FYDP?
    Secretary Wilson and General Goldfein. The Air Force is proposing 
to buy the Advanced Radar Threat System family of systems and 
infrastructure upgrades to create the fidelity and density necessary to 
better train our airmen, to include 5th Generation platforms. To 
replicate tasks associated with the Range of Military Operations 
requires a holistic plan combining live, synthetic, and blended 
capabilities. The specific details associated with key investments will 
be available after the President's Fiscal Year 2020 budget submission.

    16. Senator Sullivan. General Goldfein, how do you see ranges such 
as the Joint Pacific Alaska Range Complex (JPARC) contributing to the 
Air Force's current and future readiness?
    General Goldfein. JPARC contributes to improving the Air Force's 
current and future readiness through its large airspace, relevant 
training environment, and the ability to bring joint forces together to 
train in some of the most advanced threat training environments 
available.
                             adversary air
    17. Senator Sullivan. Secretary Wilson and General Goldfein, while 
the Air Force has chosen to invest hundreds of millions today and even 
billions in ``contract'' adversary air--which really only replicate a 
3rd Generation threat--what is the USAF doing to ensure that the two 
USAF Aggressor squadrons of F-16s have necessary upgrades to remain at 
the level of our near-peer adversaries?
    Secretary Wilson and General Goldfein. The Adversary Air training 
services contract requirement includes 5th Generation performance 
across three performance categories. Additionally, the F-16 Aggressor 
aircraft are currently undergoing core avionics improvements; including 
software upgrades, addition of secure voice and data capability, and 
SATCOM functionality. These improvements provide a foundation that 
would allow possible follow-on capability for Active Electronically 
Scanned Array (AESA) Radars and Hybrid Optically based Inertial Tracker 
(HObIT)--all designed to increase F-16 Aggressor pilot situational 
awareness and targeting capabilities to remain at the level of our 
adversaries.

                                 kc-46
    18. Senator Sullivan. Secretary Wilson and General Goldfein, can 
you provide an update on the OCONUS basing of the KC-46A? When can we 
expect the next strategic basing process to begin and what locations 
will be considered?
    Secretary Wilson and General Goldfein. The Air Force initiates 
strategic basing decisions five years in advance of the first aircraft 
delivery. The first aircraft deliveries for the fifth KC-46A main 
operating base are scheduled for fiscal year 2024. Therefore, we expect 
to start the strategic basing process in fiscal year 2019.
                   training ranges and infrastructure
    19. Senator Sullivan. General Goldfein, specifically, given the 
large-scale air and land exercises recently conducted by our 
adversaries, do we have the range and air space available to conduct 
similar exercises within the U.S. Armed Forces?
    General Goldfein. We have ranges available to train in a focused 
way to improve and exercise joint interoperability employment 
objectives and do not focus on ``Show of Force'' exercises that our 
adversaries typically conduct. However, we are limited in our ability 
to expand due to urban sprawl, endangered species habitats, renewable 
energy development and competition with industry for airspace and 
spectrum.

    20. Senator Sullivan. General Goldfein, is there current range and 
air space infrastructure sufficient to meet the training needs and 
required readiness of the Air Force?
    General Goldfein. The capabilities of our newer weapon systems have 
outgrown our legacy range and airspace structure. We are addressing 
this shortfall through improving the JPARC and targeted expansion of 
the Nevada Test and Training Range (NTTR). Regarding expansion of the 
NTTR, the Final Legislative Environmental Impact Statement for renewal 
of its withdrawal from the public domain (released to the public on 26 
October 2018) identified as part of the preferred alternative three 
proposed expansions of the range totaling approximately 300,000 acres--
alternatives 3A-1 (15,314 acres), 3B (56,501 acres), and 3C (227,027 
acres)--to increase or enhance both major combat operations and 
irregular warfare test and training as well as increase the operational 
security and safety of the range. The Air Force's preferred alternative 
also includes the proposal to make the renewal and expansion (300,000 
acres) withdrawals from the public domain indefinite (Alternative 4C), 
meaning the withdrawal would not expire for the foreseeable future. We 
also realize that we must build a robust synthetic environment that 
will facilitate high-end training.

    21. Senator Sullivan. General Goldfein, what, if any, concerns do 
you have about infringement on existing ranges or the ability to expand 
ranges, if necessary in the future?
    General Goldfein. The ability to expand ranges and airspace is part 
of our plan, but is a multi-year process and presents the most concern 
to meet training objectives for 5th generation aircraft. Although 
encroachment is a continual challenge, we work with our interagency 
partners at FAA, Department of Interior, Bureau of Land Management, 
Dept. of Fish and Wildlife as well as state and local officials in 
order to limit or mitigate the effects.
                           acquisition reform
    22. Senator Sullivan. Secretary Wilson, over the past year you and 
Gen. Goldfein have talked a great deal about speeding up the 
acquisition process and delivering improved capabilities to the 
warfighter faster. Would you please give us some specific examples of 
how you have used the acquisition authorities provided in the fiscal 
year 2017 NDAA to deliver more capability faster?
    Secretary Wilson. Section 847 of the fiscal year 2017 NDAA, 
Revisions to Definition of Major Defense Acquisition Program, removes 
the statutory definition of MDAP for ``an acquisition program or 
project that is carried out using the rapid fielding or rapid 
prototyping acquisition pathway under section 804 of the National 
Defense Authorization Act for Fiscal Year 2016 (Public Law 114-92; 10 
U.S.C. 2302 note).''
    The Air Force uses this authority to develop and execute 
acquisition strategies that speed acquisition timelines, providing 
capability to our warfighters more quickly. Recent programs that have 
been approved to execute using section 804 of the fiscal year 2016 NDAA 
and section 847 of the 2017 NDAA are:

        Protected Tactical Enterprise Service, which will reach Initial 
        Operating Capability 18 months quicker than under a traditional 
        acquisition program. Unified Platform, which will reach Initial 
        Operating Capability 3\1/2\ years sooner than it would 
        executing under a traditional approach. Additionally, the F-22 
        Agile Prototype Program will achieve the Initial Fleet Release 
        milestone 2 years sooner than it had planned by tailoring the 
        Department of Defense Instruction under the 5000.02 process.

    23. Senator Sullivan. Secretary Wilson, where do you still see 
challenges?
    Secretary Wilson. We are continuing to push decision-making to the 
lowest levels and reduce bureaucracy in order to speed capability to 
the warfighter. OSD recently issued interim guidance for rapid 
prototyping and rapid fielding under fiscal year 2016 NDAA section 804 
Middle Tier of Acquisition (MTA). As the Air Force discusses the 
interim governance implementation with OSD, we will continue with 
innovative execution utilizing the appropriate MTA authorities. Among 
other things, the guidance would establish OSD veto authority over 
Service transparency into section 804 programs. As the Air Force 
discusses the interim governance implementation with OSD, we will 
continue with innovative execution utilizing the appropriate MTA 
authorities.

    24. Senator Sullivan. Secretary Wilson, what additional authorities 
do you need?
    Secretary Wilson. We appreciate your continued support of our 
legislative requests. We have developed two space acquisition 
legislative proposals that are currently under consideration for 
submission as part of the Department of Defense fiscal year 2020 
legislative program. With respect to general acquisition authorities, 
at this time we believe we have all the Congressional authorities we 
need to address faster and smarter acquisitions and are looking forward 
to the implementation and results from authorities like sections 804 
and 847. As we gain experience with implementation of section 804, we 
will keep you informed of any additional legislation needed.
                               __________
               Questions Submitted by Senator Deb Fischer
                         mission capable rates
    25. Senator Fischer. General Goldfein, recently, Secretary Mattis 
issued memo guidance to increase mission capable rates for tactical 
aircraft throughout the Air Force and Navy. Other large aerial 
platforms which serve a non-combat role, such as ISR and airborne early 
warning platforms, are just as critical. Unfortunately, many of these 
platforms are several decades old and as such suffer variable mission 
capable rates. What plans are in place to increase mission capable 
rates for the Air Force's other airframes, and what efforts at 
improvement are being made currently?
    General Goldfein. The Air Force is working multiple efforts to 
improve mission capability of our aging legacy platforms. We are nearly 
complete with the annual update of our aircraft availability 
improvement programs. These integrated plans, approved by stakeholders, 
present senior leaders with options to best align resources to achieve 
readiness goals and targets. Future plans include increased sustaining 
engineering, as well as aggressively pursuing emerging technologies and 
commercial best practices such as condition based maintenance, theory 
of constraints, additive manufacturing and more.
                         maintenance investment
    26. Senator Fischer. General Goldfein, recently, the GAO examined 
the operating costs inherent with aging Air Force Aircraft, finding a 
relationship between investment in maintenance and sustainment and the 
rate at which airframes and components break down. What efforts are 
being made to address the unique maintenance issues linked with the Air 
Force's older platforms?
    General Goldfein. The Air Force is taking a variety of actions to 
address the unique maintenance issues associated with our aging 
aircraft. The particular efforts are tailored to the specific 
challenges posed by the weapon systems, but in general our efforts 
include:

    <bullet>  Incorporating cutting edge technologies into our organic 
depot facilities to improve performance and reduce maintenance times.

    <bullet>  Optimizing programmed maintenance and planned 
modifications to ensure the impact on availability is minimized.

    <bullet>  Incorporating enhanced corrosion inspection and repairs 
into heavy maintenance activities.

    <bullet>  Implementing service life extension programs that enable 
the maintenance and reengineering of parts that had not been planned 
for repair.

    <bullet>  Leveraging direct hire authority to hire skilled 
employees for critical maintenance positions.
                             growth in isr
    27. Senator Fischer. Secretary Wilson, the Air Force's plan to grow 
its squadrons to 386 is an ambitious one and showcases the changing 
geopolitical climate we must operate and succeed in. ISR was singled 
out for particular growth under this plan--according to this vision for 
Air Force expansion, what will be done with older but still critical 
large manned ISR platforms such as the C-135 family of aircraft (to 
include planes like the RC-135)? Will these be replaced, will their 
numbers be expanded, or is there some other strategy in place for 
growing Air Force ISR?
    Secretary Wilson. The RC-135 family of aircraft will continue to 
operate through at least 2040-2050 with a possible expectation of an 
analysis of alternatives sometime in the late 2020's or early 2030's.
                        industrial base support
    28. Senator Fischer. Secretary Wilson, to what degree do you assess 
the current industrial base capacity can support the effort to reach 
386 squadrons? What are some areas of manufacturing shortfall or supply 
chain problems that could prevent such a goal from being achieved, and 
how might these be overcome?
    Secretary Wilson. On July 21, 2017, President Donald J. Trump 
issued Executive Order (EO) 13806 on Assessing and Strengthening the 
Manufacturing and Defense Industrial Base and Supply Chain Resiliency 
of the United States. EO 13806 directed the Secretary of Defense to 
perform a whole-of-government assessment of the manufacturing and 
defense industrial base and assess risk, identify impacts, and propose 
mitigations. We participated in the assessment and identified multiple 
industrial base challenges, including dependency on foreign sources, 
single and/or sole sources of supply, suppliers' financial fragility, 
capacity limitations, and others.
    The Department created a classified action plan that includes 
recommendations designed to mitigate the most critical industrial base 
impacts identified during the assessment. The AF, in conjunction with 
the DOD Office of Industrial Policy and other government stakeholders, 
is currently working on the implementation of the action plan, 
including updates on identified risks and appropriate mitigations. We 
are also identifying the right programs and tools available to mitigate 
risks. Programs like the Defense Production Act Title III, 
Manufacturing Technology, and Industrial Base Analysis & Sustainment 
will help us address critical manufacturing bottlenecks, support 
fragile suppliers, reduce foreign dependency, and mitigate single 
points-of-failure.
                      conditions based maintenance
    29. Senator Fischer. General Goldfein, how is the new Conditions 
Based Maintenance construct being applied to legacy airframes with 
higher end service hours, such as iterations of the C-135 platform, and 
what changes (if any) has this produced in mission capable rates?
    General Goldfein. The Conditions Based Maintenance construct, 
Reliability Centered Maintenance, and predictive analytics form a 
culture that seeks to perform maintenance based on evidence of need 
provided through aircraft sensor data analysis, system mode-failure 
analysis and other enabling processes and technologies. This allows us 
to know when a part is going to fail beforehand, which then provides us 
the opportunity to change the part at a time and place of our choosing 
while optimizing the supply system to be prepared for that maintenance 
action. As such, it has the potential for huge gains in both readiness 
and cost-effectiveness.
    As many of our legacy aircraft lack the onboard sensors required to 
accomplish real time fault reporting, we must prioritize which aircraft 
we equip with sensor capability to utilize Condition Based Maintenance 
to its fullest extent. Those without sensor capability utilize 
Reliability Centered Maintenance or other predictive analysis models to 
reduce maintenance downtime. We have test programs ongoing for the B-1 
and C-5 and expect to see initial results by the end of fiscal year 
2019. We also plan initial fielding for the KC-135 in March 2019.
                               __________
              Questions Submitted by Senator David Perdue
                     jstars sustainment strategies
    30. Senator Perdue. Secretary Wilson, a GAO report published last 
month concluded that the JSTARS platform faces maintenance issues 
because of poor depot maintenance. Currently, the contractor utilizes a 
commercial-based maintenance plan, which does not focus on long-term 
structural issues that require inspection and maintenance, instead of a 
military-based plan. Maintenance costs also almost doubled between 
fiscal year 2011 and fiscal year 2016 due to increases in contractor 
logistics support. The 2019 NDAA requires a report to be submitted that 
conducts a cost benefit analysis for conducting organic depot 
maintenance at Robins Air Force Base versus conducting contracted, non-
organic depot maintenance. Even though there has been just one test 
aircraft, can you speak to the benefits realized thus far with organic 
depot on the JSTARS aircraft?
    Secretary Wilson. The Air Force expects to achieve cost and 
schedule efficiencies during the ongoing organic depot level 
maintenance pilot program at Robins AFB, GA. The Air Force anticipates 
reducing time spent in programmed depot maintenance (PDM) from an 
average of 439 days (based on the last 5 PDM deliveries) to 300 days. 
The final cost and schedule efficiency achieved will be available for 
release 90 days after completion of the organic depot level maintenance 
pilot. The Air Force will provide an update briefing to the 
Congressional Defense Committees on the progress of organic depot 
maintenance.

    31. Senator Perdue. Secretary Wilson, what cost savings have you 
found with organic depot maintenance on the JSTARS test aircraft?
    Secretary Wilson. Based on the on-going organic depot maintenance 
pilot, the Air Force anticipates substantial cost savings over 
contractor depot maintenance. The final cost savings achieved will be 
available for release 90 days after completion of the organic depot 
level maintenance pilot. The Air Force will provide an update briefing 
to the Congressional Defense Committees on the progress of organic 
depot.

    32. Senator Perdue. Secretary Wilson, has the Air force begun the 
cost benefit analysis required in the NDAA to compare organic with 
contracted maintenance?
    Secretary Wilson. Yes, the Air Force began the cost benefit 
analysis to compare organic and contracted maintenance for the JSTARS 
fleet. We are currently collecting actual cost and schedule data from 
the first aircraft inducted into the organic depot maintenance pilot 
(aircraft inducted on 16 July 2018) in order to inform this analysis.

    33. Senator Perdue. Secretary Wilson, when will the aforementioned 
study be published?
    Secretary Wilson. The Air Force anticipates the full cost benefit 
analysis from the organic depot maintenance pilot will be available by 
January 2020. We will provide an update briefing to the Congressional 
Defense Committees as information is available.

    34. Senator Perdue. Secretary Wilson, while the Air Force has done 
well with ensuring their Life Cycle Management Plans for all of their 
platforms are updated every 5 years, various changes to the estimated 
service life of the JSTARS platform and the prohibition on retirement 
of any aircraft require special attention be given to the aircraft. 
What is the progress of reviewing new and different sustainment 
strategies for the JSTARS aircraft?
    Secretary Wilson. The Air Force is still assessing what updates are 
required for JSTARS sustainment strategy. Information obtained from the 
organic depot maintenance pilot will be paramount in informing this 
decision.

    35. Senator Perdue. Secretary Wilson, what decisions have been made 
by the Air Force to update the sustainment strategy for the JSTARS?
    Secretary Wilson. The Air Force is still assessing what updates are 
required for JSTARS sustainment strategy. Information obtained from the 
organic depot maintenance pilot will be paramount in informing this 
decision. The Air Force will provide an update to the Congressional 
Defense Committees on the status of the ongoing organic depot 
maintenance pilot as needed.

    36. Senator Perdue. Secretary Wilson, when can we expect a new Life 
Cycle Management Plan to be published by the Air Force?
    Secretary Wilson. The JSTARS life cycle management plan (LCMP) is 
being updated to reflect actions being taken to accomplish safety of 
flight modifications and to increase aircraft availability. A number of 
factors have the potential to significantly impact the completion date 
of a new LCMP and preclude the Air Force from providing an estimated 
publication date at this time. Factors impacting an LCMP update 
include: the results of the ongoing organic depot maintenance pilot and 
associated cost benefit analysis, fiscal year 2019 NDAA E-8C 
availability requirements, and the end of the current sustainment 
contract in CY22.
                            depot readiness
    37. Senator Perdue. Mr. Pendleton, last week a report on the state 
of the U.S. industrial base issued by the White House states that ``all 
facets of manufacturing and defense industrial base are currently under 
threat.'' What are the major challenges facing the Air Force's 
sustainment of legacy equipment through the industrial base?
    Mr. Pendleton. GAO's prior work has found that the Air Force and 
the Department of Defense (DOD) face numerous industrial base 
challenges in the sustainment of its weapon systems. These challenges--
(1) diminishing manufacturing sources and material shortages, (2) 
single source of supply, (3) shortage of depot maintenance personnel at 
military depots, and (4) the cybersecurity of weapon systems--align 
with many of those identified in the report provided to the President. 
\1\
---------------------------------------------------------------------------
    \1\ Assessing and Strengthening the Manufacturing and Defense 
Industrial Base and Supply Chain Resiliency of the United States, 
September 2018.
---------------------------------------------------------------------------
    First, in September 2018 GAO reported that diminishing 
manufacturing sources for spare parts were negatively affecting the 
availability of each of the five Air Force aircraft--B-52, C-17, E-8C, 
F-16, and F-22--we reviewed. \2\ For example, the E-8C Joint 
Surveillance Target Attack Radar System (JSTARS) has experienced this 
problem with parts affecting the aircraft's secure data capabilities. 
Specifically, the vendor that made a part allowing for secure 
connectivity for the aircraft while airborne went out of business. GAO 
reported the Air Force has ongoing and planned actions to maintain the 
availability of spare parts, such as identifying alternative vendors, 
reverse-engineering parts, and cannibalizing parts from other aircraft. 
\3\ For example, the F-22 program office maintains a comprehensive 
Diminishing Manufacturing Sources program to minimize material 
shortages. DOD is also in the process of developing department-wide 
guidance, in response to a GAO recommendation, to enhance its 
Diminishing Manufacturing Sources and Material Shortages (DMSMS) 
program. In September 2017 GAO reported that DOD's implementation of 
the DMSMS program to proactively manage the loss of suppliers and 
shortages varied at selected program offices. \4\ GAO found that DOD 
lacked department-wide DMSMS policy, such as an instruction, that 
clearly defines requirements of DMSMS management and details 
responsibilities and procedures to be followed by program offices to 
implement the policy. DOD concurred with this recommendation and is in 
the process of taking steps to implement it.
---------------------------------------------------------------------------
    \2\ GAO, Weapon System Sustainment: Selected Air Force and Navy 
Aircraft Generally Have Not Met Availability Goals, and DOD and Navy 
Guidance Need to Be Clarified, GAO-18-678 (Washington, DC: Sept. 10, 
2018). Diminishing manufacturing sources is a loss or impending loss of 
manufacturers or suppliers of items.
    \3\ Cannibalizing is the taking of a part from one end item (e.g., 
aircraft) and using it on another end item. This involves taking parts 
from condemned end items schedule for disposal, using parts from end 
items that are ``further back in line'' at the depot, or re-
prioritizing parts from one use to another.
    \4\ GAO, Defense Supply Chain: DOD Needs Complete Information on 
Single Sources of Supply to Proactively Manage the Risks, GAO-17-768 
(Washington, D.C.: Sept. 28, 2017).
---------------------------------------------------------------------------
    Second, in September 2017 GAO reported that a congressionally-
mandated 2016 DOD report on risks associated with single sources of 
supply did not include implementation plans and timelines for risk 
mitigation actions or information about the effects of the loss of 
suppliers. In addition, DOD did not provide complete information about 
DOD organic facilities that are considered critical assets (i.e., its 
loss would have a serious, debilitating effect on the ability to 
execute a capability or mission-essential task) in its report. GAO 
recommended that DOD provide complete information to decision makers on 
risk mitigation plans and timeframes, potential effects from losses, 
and all critical facilities, commercial and organic, regarding risks 
from single sources of supply.
---------------------------------------------------------------------------
    \5\ GAO-17-768.
    \5\ GAO-18-678.
---------------------------------------------------------------------------
    Furthermore, weapon system program offices do not have complete 
information to fully identify and manage single source of supply risks. 
First, program officials GAO spoke with for our September 2017 report 
did not have information about parts from single-source suppliers that 
are considered to be most critical, which could provide important focus 
for managing these risks. Second, program offices often rely on the 
prime contractor to identify single source of supply risks, among other 
types of risks, and GAO found in September 2017 that program offices in 
some instances had limited information to manage those risks because 
DOD does not have a mechanism to ensure program offices obtain complete 
information from contractors. GAO recommended that DOD take steps to 
share information on risks identified with relevant program managers or 
other designated service or program officials and develop mechanism to 
ensure that program offices obtain information from contractors on 
single source of supply risks. DOD concurred with these recommendations 
and is in the process of taking steps to implement them.
    Third, GAO's September 2018 report identified instances in which 
the Air Force Air Logistics Complexes did not have sufficient personnel 
to conduct needed depot maintenance on its aircraft. \6\ Specifically, 
the Air Force reported a shortage of depot maintenance personnel at 
Warner Robins Air Logistics Complex for its work on the C-17 aircraft. 
This occurred due to attrition, inability to retain skilled workers, 
and hiring freezes. F-22 program officials at Ogden Air Logistics 
Complex also reported a shortage of maintenance personnel for similar 
reasons. GAO also has work underway examining depot skill gaps across 
the Military Services and plans to report on this issue prior to the 
end of 2018.
---------------------------------------------------------------------------
    \6\ GAO-18-678.
---------------------------------------------------------------------------
    Fourth, in October 2018 GAO reported that DOD faces mounting 
challenges in protecting its weapon systems from increasingly 
sophisticated cyber threats. \7\ Although GAO and others have warned of 
cyber risks for decades, until recently, DOD had not prioritized weapon 
systems cybersecurity. In operational testing, DOD routinely found 
mission-critical cyber vulnerabilities in systems that were under 
development, yet program officials GAO met with believed their systems 
were secure and discounted some test results as unrealistic. Using 
relatively simple tools and techniques, DOD testers were able to take 
control of systems and largely operate undetected, due in part to basic 
issues such as poor password management and unencrypted communications. 
In addition, vulnerabilities that DOD is aware of likely represent a 
fraction of total vulnerabilities due to testing limitations. For 
example, not all programs have been tested and tests do not reflect the 
full range of threats.
---------------------------------------------------------------------------
    \7\ GAO, Weapon Systems Cybersecurity: DOD Just Beginning to 
Grapple with Scale of Vulnerabilities, GAO-19-128 (Washington, DC: Oct. 
9, 2018).
---------------------------------------------------------------------------
    As we reported in October 2018, DOD has recently taken several 
steps to improve weapon systems cybersecurity, including issuing and 
revising policies and guidance to better incorporate cybersecurity 
considerations. DOD, as directed by Congress, has also begun 
initiatives to better understand and address cyber vulnerabilities. 
However, DOD faces barriers that could limit the effectiveness of these 
steps, such as cybersecurity workforce challenges and difficulties 
sharing information and lessons about vulnerabilities. To address these 
challenges and improve the state of weapon systems cybersecurity, it is 
essential that DOD sustain its momentum in developing and implementing 
key initiatives. GAO did not make any recommendations in the October 
2018 report and plans to continue evaluating key aspects of DOD's 
weapon systems cybersecurity efforts.

    38. Senator Perdue. Secretary Wilson, what are your priorities for 
modernizing the organic depots?
    Secretary Wilson. In order to satisfy the requirements of S.Rept 
115-262 (page 237), the Air Force is developing a Master Plan for 
organic industrial base infrastructure which will include an assessment 
of current depot infrastructure, as well as a detailed prioritization 
of modernization projects by location. The report will list priorities 
starting with the most immediate concern and incorporating new 
technologies to modernize the processes at the organic depots. The 
report was completed on February 1, 2019.

    39. Senator Perdue. Secretary Wilson, what do you need from 
Congress to meet the challenges faced by the defense industrial base?
    Secretary Wilson. Congress can help us by supporting DOD's efforts 
to implement the classified action plan provided in response to 
Executive Order 13806. This includes new legislation to address 
industrial base risks and increased funding to programs like Defense 
Production Act Title III, Industrial Base Analysis and Sustainment, and 
Manufacturing Technology so the Department can support the needs of 
21st Century manufacturing companies.

    40. Senator Perdue. General Goldfein, do we currently have the 
facilities and workforce necessary to sustain both our legacy systems 
and new weapons systems?
    General Goldfein. The Air Force currently has the facilities needed 
to support our legacy systems and the new weapon systems that will be 
fielded in the near term. The Air Force has successfully utilized the 
required 6 percent investment in the organic depots to maintain the 
current equipment and facilities. In addition, Congress has provided 
MILCON funds for the KC-46 and F-35 at Tinker and Ogden to ensure we 
can support the new systems when they are fielded. In order to ensure 
we have the facilities we need to continue sustaining our weapon 
systems in the future, the Air Force is developing a Master Plan for 
organic industrial base infrastructure. This plan will include a 
detailed prioritization of modernization projects by location that will 
ensure we have the sustainment capabilities we need to satisfy future 
requirements.
    While our workforce is currently sufficient to sustain both our 
legacy and new weapon systems, attracting and retaining talent remains 
challenging. The size of the sustainment labor pool is not expected to 
increase, and this issue is exacerbated by an aging workforce that is 
eligible for retirement in increasing numbers. The direct hire 
authority provided by Congress has helped tremendously with staffing, 
and the Air Force continues to explore ways to become the employer of 
choice for new talent.
                          depot modernization
    41. Senator Perdue. Secretary Wilson, the Senate Report 
accompanying the 2019 NDAA includes a provision for all depots to 
develop depot optimization plans. What is the current condition of the 
depot facilities and equipment at the Air Logistics Complexes?
    Secretary Wilson. In order to satisfy the requirements of S.Rept 
115-262 (page 237), the Air Force is developing a Master Plan for 
organic industrial base infrastructure which will include an assessment 
of current depot infrastructure, as well as a detailed prioritization 
of modernization projects by location. The report will list priorities 
starting with the most immediate concern and incorporating new 
technologies to modernize the processes at the organic depots. The 
report delivered on February 1, 2019.

    42. Senator Perdue. General Goldfein, what is the operational 
impact on Air Force flying units of inefficient maintenance processes 
and maintenance overruns?
    General Goldfein. The impact of reduced aircraft availability is a 
degraded ability to accomplish aircrew training to meet readiness 
requirements. This situation primarily affects our in garrison forces, 
as priority for aircraft sourcing is given to down range missions to 
support the warfighter.

    43. Senator Perdue. Secretary Wilson, has the Air Force identified 
the cost of needed improvements and the savings and readiness benefits 
that can result from optimizing its depot facilities?
    Secretary Wilson. The Air Force's Master Plan of organic industrial 
base infrastructure, required by S.Rept 115-262 (page 237), will 
include the costs for needed improvements, the projected savings, and 
the impacts on readiness. The report was completed on February 1, 2019.
                         direct hire authority
    44. Senator Perdue. Secretary Wilson, there is plenty of room for 
improvement in the hiring process, and the 2019 NDAA further expands 
the direct hire authority to all necessary workers within the defense 
industrial base. The authorities for direct hire, however, will sunset 
in the future. The Air Force and rest of the government must reform the 
hiring process in the meantime to maintain the skilled work force 
necessary for a modern force. Can you provide an update on how the 
direct hire authority is improving hiring processes?
    Secretary Wilson. Direct Hiring Authority provides the capability 
to offer on-the-spot tentative job offers needed to expedite 
recruitment for critical vacancies like cyber specialists and 
engineers. Recent hiring events resulted in 378 job offers with an 
average time to hire of less than 30 days. This demonstrates the 
success of these authorities. The Air Force is maximizing usage of all 
Congressional authorities provided under National Defense Authorization 
Acts (NDAA) 2016, 2017 and 2018, resulting in over 6500 hires to date. 
These authorities will enhance the Air Force's ability to hire for 
critical maintenance positions outside of depots.

    45. Senator Perdue. Secretary Wilson, what other actions are being 
taken by the Air Force to maintain a highly technical and skilled 
workforce?
    Secretary Wilson. The demand for talent and competition with 
private industry is growing. In addition to hiring authorities, the Air 
Force continues to leverage multiple social media tools, recruiting 
platforms, and partnerships with universities to search for 
professionals and young talent to fill critical Air Force vacancies. In 
addition to the recruiting efforts, the Air Force is committed to 
continual development of our existing technical workforce. Civilian 
employees have opportunities to participate in developmental programs 
such as Education with Industry, Fellowship Programs at the Air Force 
National Laboratories or participate in Air Force Institute of 
Technology Degree programs.
    We also offer employees access to civilian tuition assistance, a 
program that has grown significantly in the past two years, which 
affords employees an opportunity to pursue degrees with subsidized 
tuition up to and including doctoral programs. Lastly, through our 
civilian developmental teams we focus on meeting the developmental 
needs of individual employees, whether in their current series or by 
affording them opportunities for career broadening, as a retention tool 
to keep our world-class talent within the Department of the Air Force.

    46. Senator Perdue. Secretary Wilson, what help does the Air Force 
need from Congress to improve our ability to recruit, hire, and retain 
a skilled workforce?
    Secretary Wilson. Due to the inefficiencies of title 5, vital 
direct/expedited hiring flexibilities have been provided to the 
Department of Defense; however, the specific hiring authorities are 
associated with narrow populations in the Air Force and have different 
provisions requiring multiple implementation processes and regulations. 
The Air Force needs a broader Department-wide direct hiring authority 
as well as pay setting compensation flexibilities for critical hiring 
needs or shortages essential to mission accomplishment. The Air Force 
and Department of Defense have developed several legislative proposals 
addressing these issues that are currently under consideration for 
submission as part of the Department of Defense Fiscal Year 2020 
legislative program.

    47. Senator Perdue. Secretary Wilson, what other factors, for 
example the prohibition on retiring and immediately taking a civilian 
job, limit your ability to recruit talent?
    Secretary Wilson. The 180-day waiver process to hire retired 
servicemembers can be a limiting factor for hiring and recruitment, 
specifically impacting occupations whose primary talent pool is retired 
military members.
    Another recurring issue the Air Force faces in recruiting talent 
concerns the Office of Personnel Management classification and 
qualification standards. These standards cover the large percentage of 
the Air Force Title 5 civilian workforce and many are severely 
outdated. For example, the qualification standards for occupational 
series 2181 (civilian pilots and simulator instructors) was published 
in 1988, and they do not reflect current aircraft mission requirements, 
flying hour programs, or the Air Force's investment in high fidelity 
simulators. These outdated standards significantly impede the hiring 
and retention of civilian aircraft operators resulting in recurring 
talent losses to the airline industry or private sector.
                                 audit
    48. Senator Perdue. Secretary Wilson, what is the status of the Air 
Force's fiscal year 2018 audit?
    Secretary Wilson. Our first year of Full Financial Statement audit 
is complete. The first audit included significant findings. We have 
developed corrective action plans for audit findings.

    49. Senator Perdue. Secretary Wilson, what actions have you taken 
to ensure the Air Force can achieve a clean opinion?
    Secretary Wilson. Audits identify problems which can then be fixed. 
They are used to improve management over time. We have directed that a 
corrective action plan be developed for every finding. We will monitor 
the closure of corrective actions.

    50. Senator Perdue. Secretary Wilson, do you believe the audit will 
help you find readiness efficiencies?
    Secretary Wilson. Possibly identify management gaps that can be 
improved. Some may have readiness implications.
                            kc-135 readiness
    51. Senator Perdue. General Goldfein, what is the Air Force doing 
to ensure that the fleet of KC-135 aircraft are receiving the necessary 
attention regarding corrosion and chronic fuel leaks to continue flying 
for their full service life?
    General Goldfein. Each KC-135 aircraft undergoes Programmed Depot 
Maintenance (PDM) every five years to remedy all fuel systems issues 
including restoration of integral fuel tanks and refurbishing fuel 
bladders back to baseline serviceable condition. All fuel leak issues 
identified by the field and PDM maintainers are corrected and tested 
before returning an aircraft to home station. KC-135 has established a 
Corrosion Prevention and Control Program plan to define the process for 
identifying specific actions to delay and reduce the onset of corrosion 
on the KC-135 aircraft.

    52. Senator Perdue. General Goldfein, have new technologies been 
tested to provide improved performance, reduced corrosion, and reduced 
leakage for the aging KC-135 fleet?
    General Goldfein. The Fiscal Year 2017 National Defense 
Authorization Act directed the Air Force to conduct a KC-135 study 
regarding the value of using polyurethane sealant (newer technology) to 
correct chronic leak issues. The KC-135 study researched 15 years of 
data from the Air Force Research Laboratory and interviewed 4 other 
platforms that have experience with polyurethane sealants. In addition, 
one KC-135 aircraft was selected as a test aircraft for ``deseal'' of 
the current polysulfide sealant and ``reseal'' of newer polyurethane 
sealant.
    Cost and schedule data from test aircraft showed that polyurethane 
sealant is not advantageous for the KC-135 fleet. Due to the cost and 
schedule required, completely ``desealing and resealing'' KC-135 
aircraft with any sealant, polysulfide or polyurethane, should only be 
considered on aircraft that are deemed as problematic/chronic leakers. 
KC-135 has also invested in helium leak detectors to help maintainers 
troubleshoot small, nuisance leaks. In 2019, the Air Force Research 
Laboratory is planning a flight demo of a fuel leak sensor system to 
determine leak locations from outside the aircraft which may reduce 
inspection and maintenance time.

    53. Senator Perdue. General Goldfein, what specifically has been 
done to address the issue of chronic leaks with the KC-135?
    General Goldfein. We directed the replacement of several aircraft 
structural end items that contribute to chronic KC-135 fuel leaks 
including aft spar terminals, structural fittings, and improved fuel 
bladders. Additionally, the Air Force Research Laboratory developed and 
tested a drop-in replacement for fuel leak detection tape on two KC-
135s. This solution will add a change fuel path indication and a 
residue-free removal allowing maintainers to efficiently determine 
isolated fuel leak sources.

    54. Senator Perdue. Mr. Pendleton, would it be appropriate or 
necessary for GAO to look into the issue of chronic leaks for the KC-
135 and review technologies or sustainment methods that the Air Force 
is considering to maintain the current fleet of tanker aircraft?
    Mr. Pendleton. GAO has ongoing work examining sustainment outcomes, 
such as mission capable rates, and associated supply and maintenance 
challenges for combat-related fixed- and rotary-wing aircraft across 
the Air Force, Navy, Marine Corps, and Army. GAO plans to report on 
this issue by early summer 2019. This work includes the KC-135 and KC-
10 Air Force tankers. GAO personnel are available to discuss any 
specific interests and issues regarding the sustainment of the Air 
Force's tanker fleet, as well as ways we can help support Congressional 
oversight of these systems.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                                  pfas
    55. Senator Shaheen. Secretary Wilson, as you know the Department 
of Defense (DOD) is researching and developing Aqueous Film Forming 
Foam (AFFF) alternatives that do not contain perfluorooctanesulfonic 
acid (PFOS) or perfluorooctanoic acid (PFOA) through the Strategic 
Environmental Research and Development Program (SERDP) and 
Environmental Security Technology Certification Program (ESTCP). Is the 
Department of the Air Force conducting its own Research and Development 
(R&D) regarding AFFF alternatives that do not contain PFOS or PFOA and, 
if so, what is the extent of that research?
    Secretary Wilson. The Department of the Air Force is not conducting 
independent Research and Development regarding AFFF alternatives. The 
Department of the Navy is lead agency for the AFFF Military 
Specifications.

    56. Senator Shaheen. Secretary Wilson, it is my understanding that 
the Navy Research Lab (NRL) is conducting R&D related to AFFF 
alternatives that do not contain PFOS or PFOA. If the Air Force is 
conducting its own R&D regarding AFFF alternatives, is the Air Force 
coordinating and de-conflicting its efforts with the Navy?
    Secretary Wilson. The Department of the Air Force is not conducting 
independent Research and Development regarding AFFF alternatives. The 
Department of the Navy is lead agency for the AFFF Military 
Specifications.

    57. Senator Shaheen. Secretary Wilson, it is my understanding that 
some North Atlantic Treaty Organization (NATO) allies of the United 
States have already transitioned to using per- and polyfluoroalkyl 
substances (PFAS)-free foams. What would prevent the U.S. Air Force 
from transitioning to using PFAS-free foams?
    Secretary Wilson. It is imperative the Air Force maintains 
effective fire protection for people, critical assets, and 
infrastructure and as such is required to utilize a Military 
Specifications approved fire-fighting agent. The Navy, as lead agency 
for the AFFF Military Specifications, amended the specification in 2017 
to target development of, and transition to, a non-fluorinated agent 
and encourage AFFF manufacturers to minimize the PFOA and PFOS levels 
in their products in the interim. When a fluorine-free foam is 
developed that meets military performance specifications, then the Air 
Force could transition to a Military Specifications compliant, PFAS-
free foam.

    58. Senator Shaheen. Secretary Wilson, earlier this year, Senator 
Rounds and I introduced the PFAS Registry Act, which would create a 
national database for servicemembers and veterans experiencing health 
problems potentially due to PFAS exposure. Portions of this bill were 
included in the fiscal year 2019 NDAA, which was signed into law in 
August. During last month's PFAS hearing before the Senate Homeland 
Security and Governmental Affairs Committee, Deputy Assistant Secretary 
Maureen Sullivan testified that the DOD has begun implementing these 
provisions. Could you please elaborate on the DOD's efforts to 
establish a PFAS registry for military personnel and veterans?
    Secretary Wilson. Regarding a registry for individuals exposed to 
PFAS, as specified in the section 315(c) (4) of the National Defense 
Authorization Act of Fiscal Year 2019, the Secretary of Defense will 
assess the human health implications of Per- and Polyfluoroalkyl 
Substances (PFAS) exposure. The assessment will also include an 
estimate of the cost required to administer a potential registry of 
individuals who may have been exposed to PFAS while serving in the 
Armed Forces. The Department will also assess scientific results and 
recommendations from ongoing PFAS studies and analyses by the Centers 
for Disease Control and Prevention/Agency for Toxic Substances and 
Disease Registry, and other organizations, to determine the feasibility 
of a registry. The Air Force will engage and support the Office of the 
Secretary of Defense as the Department of Defense continues to assess 
the health effects of PFAS exposure.

    59. Senator Shaheen. Secretary Wilson, what is your department 
doing to ensure that servicemembers and veterans receive updates on 
recent scientific developments on the effects of PFAS exposure and 
information on what resources may be available to address their health 
concerns?
    Secretary Wilson. The Air Force uses the Center for Disease Control 
and Prevention/Agency for Toxic Substances and Disease Registry (ATSDR) 
and the Environmental Protection Agency (EPA) for the latest scientific 
developments, as they are the federal agencies with the expertise to 
vet new studies and findings. When we learn of new Per- and 
Polyfluoroalkyl Substances (PFAS) health effects information from these 
agencies, we pass it to our subordinate commands to ensure the 
information is disseminated and actions are implemented. We also engage 
with ATSDR as they begin work on the health study and exposure 
assessment, which will ultimately serve to provide additional 
scientific information regarding health effects of PFAS exposure.
    When the Air Force holds public meetings regarding perfluorooctane 
sulfonate (PFOS) / perfluorooctanoic acid (PFOA) environmental 
contamination, we invite the public health officials with jurisdiction 
to explain PFAS health effects and scientific information to attendees. 
The Air Force also hosts a public website https://www. afcec.af.mil/
WhatWeDo/Environment/Perfluorinated-Compounds/ detailing the latest Air 
Force actions in response to PFOA/PFOS contamination.
    The Department of Veterans Affairs also disseminates PFAS 
information via its public website (https://www.publichealth.va.gov/
exposures/pfas.asp), and veterans may contact a local VA Environmental 
Health Coordinator for concerns and questions.
    The Air Force is committed to being transparent in its handling of 
PFOS/PFOA-related issues and related information and maintaining an 
open dialogue with communities, regulators, and other stakeholders.

    60. Senator Shaheen. Secretary Wilson, it is my understanding that 
the Military Specification (MILSPEC) that require the use of AFFF that 
contains PFAS was developed in the 1960s. When was the last time the 
MILSPEC requiring the use of AFFF that contains PFAS was evaluated?
    Secretary Wilson. The Navy amended the AFFF Military Specification 
in 2017, targeting development of, and transition to, a non-fluorinated 
agent and encouraging AFFF manufacturers to minimize the PFOA and PFOS 
levels in their products in the interim. The amended Military 
Specification sets a maximum acceptable limit of PFOS and PFOA at the 
current lowest limit of quantitation of 800 ppb.
                               __________
              Questions Submitted by Senator Mazie Hirono
                   adversary air capability training
    61. Senator Hirono. General Goldfein, I want to first thank you for 
the detailed responses to my questions for the record as a result of 
the Air Force posture hearing this year related to adversary air 
capabilities for the Hawaii Air National Guard at Joint Base Pearl 
Harbor Hickam (JBPHH). In that response, you stated that ADAIR jets and 
pilots will be permanently placed in Hawaii to allow more realistic 
training for F-22 crews. Can you describe the Air Force's strategy for 
this new ADAIR capability for the Hawaii Air National Guard, to include 
the type of new aircraft and training the Guard should expect? Is the 
February 2019 timeframe, which you provided in your response, the 
expectation for deployment of the ADAIR capability to the 199th Fighter 
Squadron?
    General Goldfein. The Air Force strategy is to use Adversary Air to 
reduce the required organic USAF generated resources across the fighter 
force structure for pilot production, absorption, and training for 
pacing threats. Currently contract Adversary Air is located at Nellis 
AFB to support the USAF Warfare Center, Red Flag exercises, and USAF 
Weapons School training demands. Joint Base Pearl Harbor Hickam is on 
the Air Force list of proposed Adversary Air locations and has been 
submitted to the Department of Defense budget process across the Future 
Years Defense Plan.
    The new Adversary Air acquisition is currently managed by the 
Acquisition Management Integration Center who requested proposals from 
commercial vendors to meet the requirements. Pending the President's 
approved budget, Congressional authorization in the fiscal year 2020 
NDAA, and outcome of expected contract award in first quarter fiscal 
year 2020, the Adversary Air aircraft type--at Joint Base Pearl Harbor 
Hickam or any other location--is yet to be determined.

    62. Senator Hirono. General Goldfein, this past August, the Air 
Force also issued a request for proposals to execute its commercial 
adversary air capability strategy. Can you confirm that this will the 
mechanism the AF will use to deploy the commercial ADAIR capability to 
the 199th Fighter Squadron, and the expected award date for the 
contract?
    General Goldfein. Yes, this is the USAF proposed mechanism to 
deploy contracted Adversary Air, pending Congressional authorization in 
the fiscal year 2020 NDAA. The current fiscal year 2019 USAF priorities 
for Adversary Air are Nellis AFB, Formal Training Units (improves 
readiness and fighter pilot shortage), and finally 4 Combat Air Forces 
locations (high end training); however, these priorities are subject to 
change. Air Combat Command and HQ USAF proposed adversary air support 
options in the Department of Defense budget process starting in fiscal 
year 2019 and continuing across the Future Years Defense Plan. If 
contracted Adversary Air is fully funded, the 199th Fighter Squadron is 
included in the deployment.

    63. Senator Hirono. General Goldfein, can you describe the 
contracting strategy which the Air Force has taken, to include the 
performance measures that will be included in the contracts to ensure 
the provided ADAIR capability aligns to the AF's mission requirements?
    General Goldfein. The Air Force chose the Combat Air Forces 
Adversary Air multiple-award contract methodology to allow today's 
widely variant competitors, who must meet specified minimum 
requirements, the opportunity to enter the Combat Air Forces Adversary 
Air contract community and begin to compete for specific mission task 
orders at each operating location. The Air Force ensures compliance 
with mission requirements through daily on-site assessments and an 
annual requirement review for Combat Air Forces. The Adversary Air 
contract allows for on and off ramp provisions to adjust for any 
changing requirements.
        gao recommendation to assess f-22 squadron consolidation
    64. Senator Hirono. Secretary Wilson and General Goldfein, in GAO's 
July 2018 report on F-22 organization and utilization, there is a 
recommendation for the AF to assess the F-22 organizational structure 
for alternative approaches to organize your squadrons. One of the two 
alternative approaches includes an assessment for a potential 
consolidation of F-22 squadrons, and the other includes revising the 
design of deployable units. What are your thoughts on the 
recommendation, and do you anticipate any impacts to the F-22 units in 
Hawaii?
    Secretary Wilson and General Goldfein. The Air Force has proposed 
to consolidate F-22s stationed at Tyndall Air Force base to three other 
F-22 locations including Hawaii. We have proposed to make Tyndall an F-
35 base. Making this change will require supplemental appropriations to 
recover Tyndall.

    65. Senator Hirono. Secretary Wilson and General Goldfein, will you 
work with me to ensure that any F-22 organizational structure changes, 
specifically those that could impact F-22 units in Hawaii, are 
coordinated with my office, the governor, and the Air National Guard 
leadership in Hawaii?
    Secretary Wilson and General Goldfein. The Air Force will 
coordinate any potential force structure changes with F-22 units in 
Hawaii through all applicable agencies during the Air Force Strategic 
Basing Process.
                infrastructure resilience and readiness
    66. Senator Hirono. Secretary Wilson and General Goldfein, extreme 
weather events and the effects of climate change can have direct 
impacts on the readiness of our forces. In 2018 alone, Hawaii was 
victim of Hurricanes Hector, Lane and Olivia--causing extreme flooding 
and high winds, which led to emergency response efforts by our critical 
Guard units. As I have mentioned many times, the AF Guard unit in 
Hawaii not only conducts its critical F-22 mission, but they also 
support the community during emergency response and disaster relief 
efforts. I am sure this same issue is also front-and-center as you deal 
with Hurricane Michael at Tyndall AFB, which, coincidently, also has a 
critical F-22 mission on the base.
    Secretary Wilson and General Goldfein, how does the AF plan for 
these extreme weather events in order to maintain the readiness of its 
forces? What policies are in place today?
    Secretary Wilson and General Goldfein. Current Air Force policy 
authorizes the local installation commander to manage their emergency 
response plan to respond to physical threats resulting from major 
accidents, natural disasters, conventional attacks, terrorist attacks, 
and Chemical, Biological, Radiation, Nuclear attacks. This risk 
management framework ensures the Air Force can maintain and mitigate 
the threats in order to achieve the highest levels of readiness.

    67. Senator Hirono. Secretary Wilson and General Goldfein, were 
there any resource gaps or lessons learned that resulted from these 
2018 hurricane events for the Guard units in Hawaii? What are some 
examples?
    Secretary Wilson and General Goldfein. In response to recent severe 
weather events, we have asked Air Combat Command to conduct a full-
spectrum assessment of how the Air Force is postured. This assessment 
will span lessons learned, best practices, and identify resource gaps 
to mitigate hurricane events impacting Hawaii and other locations 
throughout the world.

    68. Senator Hirono. Secretary Wilson and General Goldfein, how does 
the AF ensure that these lessons learned are promulgated from base-to-
base to ensure a mission ready force?
    Secretary Wilson and General Goldfein. In response to recent severe 
weather events, we have asked Air Combat Command to conduct a full-
spectrum assessment of how the Air Force is postured. This assessment 
will span lessons learned, best practices, and identify resource gaps 
to mitigate hurricane events impacting Hawaii and other locations 
throughout the world.
                     space control squadron siting
    69. Senator Hirono. General Goldfein, as you know, the AF decided 
to create four new Air National Guard Space Control Squadrons in order 
to meet combatant commander requirements. I understand there is a 
pending decision on the fourth of the four squadrons. I have been a 
supporter of locating this unit in Hawaii when engaging with military 
and community leaders. Further, in my conversations with senior AF 
leaders and combatant commanders, they have also shown support for this 
unit coming to Hawaii. While I understand there is a pending decision 
on the fourth squadron location, what status can you provide about the 
progress being made for a site selection?
    General Goldfein. Pacific Air Forces received authorization to 
conduct site surveys of the candidate locations. Once the surveys are 
complete, the information will be presented to the Secretary of the Air 
Force for a preferred and reasonable alternative decision. We 
anticipate this will occur in early 2019.
                  space force and readiness priorities
    70. Senator Hirono. Secretary Wilson, it has been reported that an 
independent Space Force could cost an estimated $13 billion over five 
years to implement. A multi-billion dollar proposal which could 
threaten to take money away from a wide array of modernization 
priorities, or from funding to expand the size and improve the 
readiness of our forces. This proposal could ultimately dip into 
military construction, operation and maintenance, and personnel 
accounts that are consistently under budgetary pressure. As you know, 
the congress passed both defense authorization and appropriation bills 
through a collaborative effort with the service secretaries to ensure 
we closed readiness shortfalls where the services expressed concerns. 
In your opinion, could the establishment of a Space Force cause the AF 
to reprioritize its readiness activities and to take risk in these 
readiness accounts?
    Secretary Wilson. The Air Force is working closely with the other 
Services and Department of Defense components to develop a proposal to 
implement the President's vision for a Department of the Space Force, 
including associated manpower requirements and costs.

    71. Senator Hirono. Secretary Wilson, could there be unintended 
consequences with the establishment of a Space Force and what might 
those consequences be in regards to readiness?
    Secretary Wilson. Our national security space capabilities are the 
best in the world. Our adversaries recognize this and are fielding 
counterspace forces to erode our military advantage, threaten the 
global economic system, and interfere with the peaceful uses of space. 
This changing environment affects all capabilities and Military 
Services.

                                 <all>
</pre></body></html>
